<html>
<title> - TO AMEND TITLE 18, UNITED STATES CODE, TO INCLUDE CONSTRICTOR SNAKES OF THE SPECIES PYTHON GENERA AS AN INJURIOUS ANIMAL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
TO AMEND TITLE 18, UNITED STATES CODE, TO INCLUDE CONSTRICTOR SNAKES OF 
            THE SPECIES PYTHON GENERA AS AN INJURIOUS ANIMAL

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2811

                               __________

                            NOVEMBER 6, 2009

                               __________

                           Serial No. 111-97

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
53-232                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
MIKE QUIGLEY, Illinois               JASON CHAFFETZ, Utah
JUDY CHU, California                 TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
DEBBIE WASSERMAN SCHULTZ, Florida
MIKE QUIGLEY, Illinois

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel


                            C O N T E N T S

                              ----------                              

                            NOVEMBER 6, 2009

                                                                   Page

                                THE BILL

H.R. 2811, ``to amend title 18, United States Code, to include 
  constrictor snakes of the species Python genera as an injurious 
  animal''.......................................................     2

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     5
The Honorable Tom Rooney, a Representative in Congress from the 
  State of Florida, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................     6

                               WITNESSES

The Honorable Kendrick B. Meek, a Representative in Congress from 
  the State of Florida
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Mr. Dan Ashe, Deputy Director of the United States Fish and 
  Wildlife Service, Washington, DC
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22
Mr. Andrew Wyatt, President, United States Association of Reptile 
  Keepers, Grandy, NC
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29
Dr. Elliott R. Jacobson, DVM, Ph.D, DACZM, Professor of 
  Zoological Medicine, College of Veterinary Medicine, University 
  of Florida, Gainesville, FL
  Oral Testimony.................................................    32
  Prepared Statement.............................................    35
Ms. Nancy Perry, Vice President of Government Affairs, The Humane 
  Society of the United States, Washington, DC
  Oral Testimony.................................................    40
  Prepared Statement.............................................    43
Mr. George Horne, Deputy Executive Director, Operations and 
  Maintenance, South Florida Water Management District, MSC 5100, 
  West Palm Beach, FL
  Oral Testimony.................................................    65
  Prepared Statement.............................................    68

                                APPENDIX

Material Submitted for the Hearing Record........................    95


TO AMEND TITLE 18, UNITED STATES CODE, TO INCLUDE CONSTRICTOR SNAKES OF 
            THE SPECIES PYTHON GENERA AS AN INJURIOUS ANIMAL

                              ----------                              


                        FRIDAY, NOVEMBER 6, 2009

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Jackson Lee, Wasserman 
Schultz, Quigley, Gohmert, Goodlatte, and Rooney.
    Staff Present: (Majority) Ron LeGrand, Counsel; Veronica 
Eligan, Professional Staff Member; and (Minority) Kimani 
Little, Counsel.
    Mr. Scott. Good morning. The Subcommittee will now come to 
order. I am pleased to welcome you today to the hearing before 
the Subcommittee on Crime, Terrorism, and Homeland Security on 
H.R. 2811, a bill to amend title 18, United States Code, to 
include constrictor snakes of the species Python genera as an 
injurious animal.
    We are going to start with a brief video, about a 5-minute 
video to put the hearing in perspective. And we will begin with 
the video.
    [Video played.]
    Mr. Scott. There are 47 species of pythons today. We will 
hear testimony about issues surrounding this bill and issues 
pertaining to the invasion of nonnative constrictor snakes, 
with particular emphasis on the Burmese python.
    On June 10, Representative Kendrick Meek of Florida 
introduced H.R. 2811, which was then referred to the Judiciary 
Committee. The bill was introduced primarily to address serious 
safety and environmental hazards; that is, the presence of a 
large number of Burmese pythons in the Florida Everglades. 
These snakes, when mature, can reach the length of 23 feet and 
weigh up to 200 pounds. They can be a danger to humans, and 
they are clearly a threat to the Florida Everglades delicate 
ecosystem. Thousands now live there as a result of breeding 
after having escaped or having been intentionally or 
accidentally released from captivity.
    [The bill, H.R. 2811, follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Scott. As a result of this threat posed to the 
Everglades by the Burmese pythons, Interior Secretary Ken 
Salazar has asked the State of Florida, the National Park 
Service, and the U.S. Fish and Wildlife Service to develop an 
action plan to control this invasive species.
    Much has been reported regarding the threat that these 
snakes represent to humans. Since 1980, 12 people have been 
killed by pet pythons. This includes a 2-year-old girl killed 
in July of this year in Florida by an 8-foot Burmese python 
that escaped from an aquarium in her home. In October of last 
year, near my home congressional district in Virginia, a woman 
was found dead by asphyxiation believed to be caused by a 13-
foot long python owned by her and her husband. In 1999, an 
Illinois couple's 7.5 foot African Rock python escaped from its 
enclosure and killed their 3-year-old son. The 12 deaths caused 
by pythons clearly reflect their danger to humans, and it is 
clear that all too often owners of these animals do not 
understand that no matter how tame or friendly these snakes 
appear to be, it is and always will be a wild animal and, as 
such, subject to what appears to be some unpredictable behavior 
when in fact the behavior is natural for the snake.
    In addition to the issue of safety to humans, we must also 
be concerned about the impact of these animals to our 
ecosystems when they leave captivity and breed, as they have in 
Florida. Today we will hear testimony about this impact. We 
will hear from U.S. Department of Interior about the recently 
completed biological risk assessment study of nine giant 
constrictors conducted by the U.S. Geological Survey, which 
appears to leave little doubt that something needs to be done 
to gain control over the continued invasion of these nonnative 
species in our ecosystem.
    Although the bill, as introduced, covered all species of 
pythons, in July of this year, subject to a bipartisan 
agreement, Representative Rooney of Florida and a Member of the 
Subcommittee introduced an amendment to the full Committee 
markup of the bill to limit the prohibition to Burmese and 
African Rock pythons.
    [The amendment follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Scott. Representative Wasserman Schultz, also a Member 
of the Subcommittee, while agreeing with the concept of the 
bill and the amendment's intent and focusing on the most 
dangerous constrictor snakes, expressed concern that the 
legislation may not go far enough in its coverage. She noted 
the concern that if we only restrict large pythons, then 
anacondas, boa constrictors, and other large snakes might 
similarly be imported and proliferate with similar impact on 
humans and our ecosystem.
    Ranking Member Gohmert expressed concerns that we may not 
know enough about the context in which we are legislating and 
requested that we conduct this hearing when the issues before 
the bill is considered on the floor. That is what has brought 
us here today.
    In addition to the testimony about the U.S. Geological 
Survey study, we will receive testimony from others with 
expertise on the issue, including experts from the University 
of Florida and the U.S. Association of Reptile Keepers, who 
will represent a point of view that differs from that of the 
U.S. Geological Survey. We will also hear from the Humane 
Society of the United States. Finally, we will hear from a 
representative from South Florida Water Management District, an 
agent that is on the scene of a vast area of South Florida that 
is directly impacted by the presence of some of these nonnative 
snakes.
    The question before us is whether the bill we have reported 
from the full Committee reflects the appropriate action to be 
taken on this issue, and we want to do what is appropriate and 
timely without overreaching.
    I will now recognize the Ranking Member of the 
Subcommittee, the gentleman from Texas, Judge Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    Today's hearing is I feel like a good idea and appreciate 
our friend Congressman Meek being here and the rest of the 
panel members. I appreciate the written testimony that has been 
submitted.
    As Chairman Scott pointed out, I did indicate I didn't 
think I knew enough about this, and so I appreciate the 
testimony and the information that has been provided by people 
that do so that we didn't go weighing into an area to legislate 
without having sufficient information.
    But the legislation proposed would amend the Federal 
Criminal Code to include all pythons as injurious animals that 
cannot be imported into the United States. This bipartisan bill 
was introduced by our friend Mr. Kendrick Meek, the gentleman 
from Florida, in June of this year. Currently, the bill has 
nine cosponsors, including our colleague on the Crime 
Subcommittee, Mr. Rooney. Senators Nelson and Martinez have a 
companion bill in that other body.
    Pythons are often imported to the United States for use as 
exotic pets, and clearly, many of these animals are kept as 
pets in the State of Florida. Over 5,000 Burmese pythons have 
been imported via Miami over the last 3 years. I had no idea 
the extent to which this had been going on. It really is 
shocking.
    But despite recent efforts by the State of Florida to limit 
and better track these potentially dangerous snakes, Burmese 
pythons have been reported in Florida's wildlands. Although 
uncertainty remains regarding their actual population, and this 
was staggering to me, an estimated 100,000 wild Burmese pythons 
are living in south Florida's natural wildlife areas, such as 
Everglades National Park.
    Unfortunately, many of these potentially dangerous animals 
are not always kept in a safe or secure manner, and they often 
escape from their cages or aquariums. When pythons escape, they 
can be a huge danger to the surrounding human population. 
According to the media reports, at least 12 people have been 
killed by pet pythons since 1980. Sadly, in early July of this 
year, a 9-foot, so-called pet Burmese python escaped its a 
aquarium encasement inside a Florida home and strangled a 2-
year-old girl in her bedroom.
    In response to this growing problem, members of the Florida 
delegation got together to craft this bipartisan bill which 
bans the imports of pythons in this country. The language of 
the bill adds these animals to the codified portion of the 
Lacey Act, a law that dates back to 1900, and is primarily used 
to prevent the importation or spread of potentially dangerous 
nonindigenous species in the United States.
    There was some opposition from reptile keepers to the 
original language of H.R. 2811, as introduced. Those opposed to 
the bill felt that a ban on the import of all pythons was far 
too broad. At a markup of the bill, Mr. Rooney offered an 
amendment that would limit the types of snakes that would fall 
under the ban. The amendment was adopted by the Committee, but 
I did ask for this hearing so Members could learn more about 
the subject, and I have already learned a great deal from the 
written testimony that has been provided by our witnesses.
    And so I appreciate the opportunity to have this hearing 
which has caused so much information to be submitted to us. 
Obviously our colleagues on both sides of the aisle from 
Florida realized there was a problem for Florida. I felt like 
it was important to see how much of a problem this was not just 
for Florida but for the United States, and to see whether this 
was something we should weigh in on the national level. It 
appears that it is a far bigger problem than I ever imagined.
    So thank you for coming. Thank you for having the hearing, 
Chairman Scott.
    I appreciate Mr. Meek's and Mr. Rooney's persistence in 
this manner, and I look forward to more information we get.
    Mr. Scott. Thank you. We usually ask for other statements 
to be placed in the record, but the gentleman from Florida has 
been so active in this area, we will make an exception and 
allow him to make a statement.
    The gentleman from Florida.
    Mr. Rooney. Thank you, Mr. Chairman. I would like to thank 
Chairman Scott and Ranking Member Gohmert for holding this very 
important hearing today.
    In Florida, we have experienced firsthand the inherent 
dangers of the damages invasive species, such as the Burmese 
python, can do to an ecosystem. The Federal Government, in 
partnership with State and local interests, has dedicated 
billions of dollars toward restoring the American Everglades in 
South Florida.
    As many of you know, the Everglades is home to an 
extraordinary variety of birds, fish, and other wildlife. Many 
are threatened or endangered. We are working tirelessly to save 
this threatened habitat to ensure the survival of the native 
wildlife; but, sadly, an invasive predator threatens all of the 
progress we have made.
    The Burmese python has no natural predators in the Florida 
Everglades. They even prey on native adult alligators. You may 
have seen the famous picture of a huge python that attempted to 
eat a 6-foot alligator. This is the reality that we are facing 
in South Florida today.
    There are estimates of over 100,000 Burmese pythons 
currently living in the Everglades. These vicious predators can 
grow 6 to 8 feet in a single year and prey on wading birds and 
other wildlife we are working so diligently to save. They 
thrive on our subtropic climate and abundant food resources. In 
2006, the South Florida Water Management District filed a 
petition with the U.S. Fish and Wildlife to have Burmese 
pythons listed as an injurious species under the Lacey Act.
    Just so I am clear, they petitioned for this 3 years ago 
this June. In that time, thousands more Burmese pythons have 
been imported into the United States, and more damage has been 
done to the ecosystem of South Florida. Not only are these 
deadly predators wreaking havoc on the Everglades, but earlier 
this year, we heard the tragic news reports of a 2-year-old who 
was strangled in her crib while she slept by a pet Burmese 
python.
    This past summer, a 17-foot Burmese python was found and 
killed in Okeechobee, Florida, which is in my district. For 
those not familiar with this area, this city is north of Lake 
Okeechobee and over 100 miles north of Everglades National 
Park. These snakes pose a real threat to health and human 
safety and should be listed under the Lacey Act.
    We have been waiting for 3 years for the Fish and Wildlife 
to issue a decision. Three years is too long. We cannot wait 
any more. And too much is at risk.
    My fellow delegation member, Mr. Kendrick Meek, who is here 
today, introduced H.R. 2811 to legislatively do what we have 
been waiting 3 years for the Fish and Wildlife to do, ban the 
further importation of these dangerous snakes. H.R. 2811 will 
help us fight the growing problem of Burmese pythons at the 
source, by keeping them from entering our country. It is a 
piece of the solution, and a very important piece I might add. 
And I thank the Member for joining us today.
    I was very pleased with the recent USGS risk assessment of 
nine large species of pythons, anacondas, and the boa 
constrictor. The risk assessment confirmed what we have long 
feared: Of the nine, four were determined to have a medium risk 
of establishment; and five, which includes the Burmese and the 
African Rock, were found to have a high risk of establishment. 
While this puts us one step closer to a Fish and Wildlife 
determination, time continues to pass and with more of these 
dangerous predators being imported.
    While H.R. 2811 is not a silver bullet to ending the 
problem in South Florida, it is a vital step toward reaching 
that goal. We must stop the further introduction of these 
snakes while we continue to work to eradicate them from the 
Everglades. I look forward to hearing from today's witnesses, 
and yield back the remainder of my time.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you, Mr. Rooney.
    We have two panels of witnesses to help consider the issue 
today. Our first panel will consist of Congressman Kendrick 
Meek of the 17th District of Florida. He is in his fourth term 
of Congress, is a Member of the House Ways and Means Committee, 
the Democratic Steering and Policy Committee, the NATO 
Parliamentary Assembly, and he is Chairman of the Board of 
Directors of the Congressional Black Caucus Foundation, and he 
is the lead sponsor of H.R. 2811.
    Mr. Meek, I assume you can stay within 5 minutes without a 
clock.
    Mr. Meek. I will try.
    Mr. Scott. Mr. Meek, it is a pleasure to see you here 
today, and look forward to your testimony.

 TESTIMONY OF THE HONORABLE KENDRICK B. MEEK, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF FLORIDA

    Mr. Meek. Mr. Chairman, let me just say, hopefully, I won't 
go against my time. I was noticing that this time keeper was 
close, unusually close, to me. But I will move it back a little 
further.
    It is a honor to be before the Subcommittee, and Mr. 
Chairman, you and your Ranking Member are very good friends of 
mine here before Congress.
    And Mr. Rooney, I want to thank him for all of his hard 
work on this legislation. This is truly bipartisan.
    Mr. Chairman, I have a couple of illustrations here that I 
want to show, because I believe the Members of the Committee 
have shaped the debate as it relates to why we are here. This 
sells it. This H.R. 2811 sells itself. There are a number of 
incidents that have been out there involving children, public 
safety. Also, as it relates to the ecosystem and the Florida 
Everglades, the python, the Burmese python does not have a 
natural predator, so it is the top of the food chain in the 
Florida Everglades. When the Florida alligator is being slammed 
by a snake, I think it is time to do something.
    We have a number of young people that buy these snakes, and 
then Johnny goes off to school, and we find ourselves in a 
situation where the parent has to find a way to dispose of 
these animals, and many times they release them into what they 
believe is a natural habitat, which it is not. These pythons 
lay up to 100 eggs. They get up to 12 to 16 feet in length in a 
given year, and they reproduce fast. So now we have over 
30,000--well over 30,000--pythons in the Florida Everglades, 
far too many to trap. We have to stop the spigot and by 
outlawing these from snakes by being imported. It is very, very 
important.
    Mr. Chairman, for the record, I would like to say I know 
the Committee has already voted in full Committee on this 
legislation, but I want to share with you, proponents and 
opponents of the bill, that I think that this Committee has 
taken an extra step to make sure that we are doing the right 
thing at the right time. And the evidence is so strong; the 
reason why these snakes should be barred from being imported to 
the United States, I believe that the outcome of today's 
hearing will hopefully have 2811 moving to the floor as fast as 
possible to get it over to the Senate.
    With that, Mr. Chairman, if I can, I have a couple of 
things that I want to--first, we have one of the snakes that 
were captured in the Florida Everglades. It is not alive.
    Mr. Scott. Thank you.
    Mr. Meek. The snake's name is Pandora, and I know that I 
have George Horne from the South Florida Water Management 
District is here.
    Okay. George, if you can help me bring Pandora out so that 
Members of the Committee can see.
    Mr. Chairman, Pandora was actually caught in the Florida 
Everglades. And as you can see, this snake is quite long, big, 
and you can only imagine if this was going--this snake was 
actually kept in a private home or in the Florida Everglades. 
Even the Florida alligator doesn't stand a chance against this 
snake. And I am pretty sure that out of 30-plus thousand of 
these snakes that have been identified by the South Florida 
Water Management District and the Florida Fresh Game and Fish 
Commission, that there are bigger snakes that are out there.
    And so, Mr. Chairman, if you have any or Members of the 
Committee have any questions, I will be more than happy to 
answer them.
    I have a couple of boards here, wherever they are. This 
board here illustrates how many eggs and the size of them. This 
was obviously a snake caught in the Florida Everglades that has 
been euthanized. But see the row of eggs that they drop again, 
not having a natural predator, brings about an unfair situation 
as relates to management and also keeping the Florida 
Everglades the way it has been over the years, a place where 
people travel throughout the world to come see.
    This is also showing you what an 11-foot python 
approximately 10 to--5- to 7 years old can consume. One python. 
So we find a number of the egrets and possum, you have your 
raccoons, you also have the American cots and the little blue 
herons. You name it. Squirrels, rabbits, cotton rats that are 
natural and mice that are natural to the Florida Everglades 
find themselves falling victim to these pythons.
    So, Mr. Chairman, I would strongly encourage the Committee 
to allow not only Mr. Rooney and I but other members of the 
Florida delegation and Members of Congress that have testified 
even there on the dais, Mr. Chairman, to move 2811. I will be 
happy to answer any questions. And, Mr. Chairman, I would also 
ask the permission of yourself and the Ranking Member if I 
could enter my formal statement into the record.
    [The prepared statement of Mr. Meek follows:]
                 Prepared Statement of Kendrick B. Meek
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Without objection, the statement will be entered 
into the record.
    And are there questions of the witness? The gentleman from 
Texas.
    Mr. Gohmert. Normally, we don't ask questions of our fellow 
Members, but the chart you displayed showing how much a python 
could consume over here, over what period of time is that?
    Mr. Meek. That is from 5 to 7 years, I believe. Am I 
correct? Five to 7 years. That is, from what I understand from 
the South Florida Water Management District that manages the 
Florida Everglades, the flow of water and also from the Florida 
Fish and Game Commission that monitors a number of habitats of 
the Everglades, that is what a 5-to-7-year-old python will 
require to survive. And this information was backed up from, 
obviously, autopsies that were taken on pythons that were 
captured.
    Mr. Gohmert. And the other photograph, what are those eggs 
contained in?
    Mr. Meek. That is actually within the body of the python. 
And this python was caught in Florida Everglades, and of 
course, scientists want to learn more about what they are 
doing, what they are eating, and many of these pythons have 
been tagged and monitored. And just recently the State of 
Florida allowed I think 15 trappers to go out and trap pythons. 
But when you are dealing with 30,000--and they are hard to 
find. Once they get into the weeds and into the water, it is 
hard to find. Secretary Salazar, myself, Senator Nelson 
actually took an airboat tour to the Florida Everglades and to 
talk about these pythons, and South Florida Water Management 
District others brought a python out for us to see similar to 
the size of the one we have here on the table.
    Mr. Gohmert. Do you know if those have migrated? Or there 
are similar areas, wildlife areas, in Georgia. Do you know if 
they have migrated north?
    Mr. Meek. Yes, sir. These pythons, 9 times out of 10, start 
out as pets, and people move throughout the country. The reason 
why the attention has been placed on the Florida Everglades, 
when you start getting a snake tackling the Florida alligator, 
people travel throughout the world to come see the Florida 
alligator, and they reproduce faster than the alligator or any 
other predator that is in the Florida Everglades.
    Also for the record, Mr. Chairman, at the appropriate time 
and also Mr. Ranking Member, I have a Palm Beach Post story 
here that only 39 snakes out of the 15 permits that were given 
to trap were actually trapped and captured.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Meek. So, really, as we continue to allow these snakes 
to come into the United States, we find ourselves putting those 
that monitor the movement and also tracking these snakes at a 
huge disadvantage because they are being released because of 
their size. Imagine, you could not maintain a snake of this 
size in your home. And we have--Mr. Rooney talked about 
incidents in his district and we have a number of incidents 
where we find these snakes that are found in back yards because 
they have to feed. And if someone has a family pet or if 
someone has a small child or what have you, we know that is the 
case, in many cases in Florida and any community in the United 
States, these snakes are going to do what they have to do to 
survive. And, unfortunately, they grow to this size, they 
become a danger to the public. They become a danger to 
management organizations throughout the country.
    Mr. Gohmert. Thank you.
    Mr. Scott. Are there other questions?
    If not, thank you. Thank you very much.
    Mr. Meek. Thank you, Mr. Chairman, for allowing me to come 
before you today. And I look forward to working with the 
Committee as we continue to work toward this great legislation 
moving to the floor.
    Mr. Scott. Thank you. If our next panel will come forward.
    As our witnesses are being seated, our first witness on 
this panel will be Daniel Ashe. He is the U.S. Fish and 
Wildlife Services Deputy Director for Policy. In this capacity 
he oversees the assistant directors in the Washington, D.C., 
office, providing strategic program direction and developing 
policy and guidance to support and promote program development 
to fulfill the service mission.
    After he testifies, Andrew Wyatt, the founder of the North 
Carolina Association of Reptile Keepers and the founder of the 
United States Association of Reptile Keepers. And he is 
currently the President of the USARK which works for the 
betterment of the reptile industry by promoting sound 
legislation and the best professional management standards at 
the State and Federal levels. He operates an eco tour, and 
wildlife education companies, provided reptiles and expertise 
in the production of several TV and film projects including 
segments for the National Geographic Channel.
    Next will be Professor Elliot Jacobson. He holds a Doctor 
of Veterinary Medicine and a Ph.D. In zoology. He has served on 
the faculty of the University of Florida since 1977, where he 
is currently a professor of veterinary medicine. Over the last 
32 years he has worked on health problems of a wide variety of 
amphibians, reptiles, birds, and mammals. His laboratory 
focuses on infectious diseases of wildlife and zoo animals. He 
has authored or coauthored 250 refereed scientific papers, 37 
chapters and texts, edited and coedited four books and has been 
either the principal or coprincipal and investigator on 83 
funded projects since 1978.
    After he testifies, Nancy Perry is the vice president of 
government affairs for the Humane Society of the United States. 
She oversees legislative campaigns to protect animals, 
including statewide initiatives and grassroots organizations 
throughout the country. She has spearheaded congressional work 
to end horse slaughter, crack down on puppy mills, and protect 
Yellowstone bison. A graduate of Northwestern School of Law of 
Lewis and Clark College, she has founded the Student Animal 
Legal Defense Fund, the Animal Law Journal, and the Animal Law 
Conference. She co-teaches an animal law seminar at George 
Washington University Law School and a summer intensive course 
at the Lewis and Clark Law School.
    Our sixth witness, George Horne, is deputy executive 
director, operations and maintenance, South Florida Water 
Management District, was named in 2002, and has 37 years of 
district experience in water resource operations and 
maintenance. In that role he is responsible for overseeing 
operations and maintenance of the Central and Southern Florida 
Project as well as other district water control and conveyance 
facilities. This water management system includes more than 
2,300 miles of canals and levees, 2,200 water control 
structures, 61 pump stations, and over 1 million acres of land 
across the district's 16-county region.
    Now, each of our witness's written statements will be 
entered into the record in its entirety, and I will ask each of 
our witnesses to summarize their testimony in 5 minutes or 
less. And to help stay within that time, there is a lighting 
device on the table which will begin green, switch to yellow 
when you have 1 minute, and will turn red when your time has 
expired.
    Mr. Ashe.

  TESTIMONY OF DAN ASHE, DEPUTY DIRECTOR OF THE UNITED STATES 
           FISH AND WILDLIFE SERVICE, WASHINGTON, DC

    Mr. Ashe. Good morning, Chairman Scott, Ranking Member 
Gohmert, and Members of the Subcommittee. I am Dan Ashe. I am 
the deputy director of the U.S. Fish and Wildlife Service. And 
we appreciate the opportunity to testify here today, 
Congressman Meek's leadership, and your timely consideration of 
a very important conservation issue.
    Being an executive branch agency, we generally prefer to 
allow administrative processes to run their course, but today 
we are here to support H.R. 2811 as reported and also to 
recommend amending the legislation to include all nine species 
of large constrictor snakes in light of the recently released 
U.S. Geological Survey risk assessment.
    We believe that the Burmese python and the other large 
constrictor snakes present a clear and urgent threat. The 
Burmese python population estimate is now in the tens of 
thousands putting a variety of imperiled species and the 
Everglades ecosystem at risk. But Burmese pythons are not the 
only concern. These other species of large snakes that are or 
may be breeding in the Everglades now including boa 
constrictors and northern African pythons and other species may 
pose a similar risk.
    Given the value of the Everglades' ecosystem, its 
biological diversity, and the potential threat to other 
ecosystems and species, all nine large constrictor snakes will 
be the focus of the Service's continued assessment under the 
Lacey Act.
    Unfortunately, there is no silver bullet that will 
comprehensively address the conservation challenge presented by 
these snakes. We lack effective trapping and other control 
technologies. We lack capacity to detect the snakes in the 
wild. We lack adequate science, management, and regulatory 
tools to prevent the further introduction and spread of these 
predators. Therefore, we believe that immediate action is 
appropriate, and we urge the Subcommittee to take that action.
    In June 2006, the Service received a request from the South 
Florida Water Management District to list Burmese pythons as an 
injurious species under the Lacey Act. At that time, at the 
time the petition was submitted, no scientific information had 
been compiled on Burmese pythons that would enable a rigorous 
assessment of risk and potential impacts to the Everglades and 
other ecosystems.
    As a result, in 2007, the Fish and Wildlife Service and the 
National Park Service partnered to jointly fund the risk 
assessment for these nine large constrictor snake species 
considered invasive or potentially invasive in the United 
States.
    Of the nine constrictors assessed, as was noted before, 
five were shown to pose a high risk to ecosystem health, 
including the Burmese python, Northern African python, Southern 
African python, yellow anaconda, and boa constrictor. The 
remaining four large constrictors, the reticulated python, 
green anaconda, Beni anaconda, and Deschauensee's anaconda, 
were shown to pose a medium risk. None of the large 
constrictors that were assessed were classified as a low-risk.
    In addition to the risk assessment, the Service published a 
notice of inquiry in January of 2008 soliciting biological, 
economic, and other data related to the potential of adding 
these large constrictor snakes to the list of injurious 
wildlife. We received over 1,500 responses. The Service is 
using this information and the risk assessment in our ongoing 
evaluation of whether these constrictor snakes should be 
considered as injurious under the Lacey Act.
    We are completing economic analysis and documentation 
required under the National Environmental Policy Act. We expect 
to complete our internal review and be positioned to publish a 
proposed Lacey Act determination in early 2010. Should a 
proposed rule be issued, the publication would be followed by 
public comment and a final decision would be possible as early 
as mid-2011. Given the importance of this issue, the Service is 
working diligently to complete the administrative process, but 
it is complex and time consuming.
    In summary, the Department supports H.R. 2811 as reported, 
and recommends amending the legislation to include all nine 
species of large constrictor snakes. We appreciate Congressman 
Meek and the Subcommittee bringing attention to this 
conservation concern. Thanks for the opportunity to testify 
today, and I would be happy to answer questions.
    [The prepared statement of Mr. Ashe follows:]
                     Prepared Statement of Dan Ashe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Mr. Wyatt.

TESTIMONY OF ANDREW WYATT, PRESIDENT, UNITED STATES ASSOCIATION 
                 OF REPTILE KEEPERS, GRANDY, NC

    Mr. Wyatt. Good morning, Chairman Scott, Ranking Member 
Gohmert, and the rest of the Subcommittee. I want to thank you 
for the opportunity to come before you and present testimony 
here on H.R. 2811. My name is Andrew Wyatt, and I am here 
representing the United States Association of Reptile Keepers, 
of which I serve as president.
    Over the past 60 years, the practice of keeping reptiles 
has changed from an obscure hobby to an incredibly widespread 
and mainstream part of the American experience. Reptiles have 
become intensely popular and now present in millions of 
American households. One in every 25 U.S. households has one or 
more reptiles. They now permeate pop culture, movies, 
advertising. And I am sure you are all familiar with the Geico 
gecko.
    The reptile industry has grown into a sophisticated and 
independent $3 billion a year industry. Herpetoculturalists 
produce high-quality captive bred animals for collectors, 
research, zoos, museums, TV, and film. These animals can be 
valued at over $100,000 for individual specimens. Millions of 
dollars flow into the national economy from the reptile 
industry. It is interlaced and interconnected with all levels 
of economy. The purchase of equipment, dry goods, bedding, 
cages channel money into U.S. manufacturing.
    Millions of dollars go into support American agriculture 
with purchases of food, grain, rodents, bedding, et cetera. 
Millions of dollars more support airlines and parcel shippers. 
The reptile industry in the United States accounts for 82 
percent of the worldwide export and trade and high-quality 
captive bred reptiles. Thousands of American small businesses 
and their employees depend on the reptile industry, and there 
would be a great loss of jobs if this bill was to pass and 
restrict all nine species.
    USARK is concerned about the feral Burmese pythons in the 
Everglades and the impact they could potentially have on the 
ecosystems of South Florida. We recognize the problem and have 
been committed to be part of the solution. Our members have 
been intrinsic in the creation of the python removal program 
and in coordination with Florida Fish and Wildlife in South 
Florida. We were the first to be licensed to remove pythons 
from State lands in South Florida.
    USARK has actively appealed to the U.S. Department of 
Interior to open up Everglades National Park to removal 
programs modeled on the Florida program. We do not believe 
captured pythons should be rereleased back into the park for 
any reason. USARK has also offered up $10,000 to U.S. Fish and 
Wildlife Service to establish the basis of a program to get 
pythons out of Florida and into qualified hands that can 
securely and humanely house them for the rest of their natural 
lives. USARK has great expertise in regards to pythons, how to 
find them, where to find them, reproductive behaviors, 
predation, et cetera. Unfortunately, in our view, the Federal 
Government has failed to capitalize on this vast pool of 
knowledge and experience to most effectively address the issue 
of feral Burmese pythons in Everglades National Park in South 
Florida.
    Beyond the invasiveness of the Burmese python, it is our 
fear that the issue is becoming overly politicized and media 
driven, thus creating a situation where we selectively 
interpret the available science. This is an issue area 
especially in this Committee that isn't especially well known 
and thus lends itself to misinformation and 
overgeneralizations.
    USARK estimates that today there are over 4 million boas 
and pythons in captivity in the United States today. This is 
not just about imported animals. This is about animals that 
have existed in the United States for over 30 years, and will 
continue to exist, because there are no provisions in this bill 
to address the number of animals that are already in captivity 
in the United States.
    USARK has been developing and employing best handling 
practices and accreditation, and welcomes a more in-depth 
discussion in this regard with congressional administrative 
officials. It is our belief that the best management practices 
and professional standards specific to certain reptiles is what 
is needed, not Draconian measures that will only succeed in 
destroying a viable industry and many American jobs.
    Some have characterized the two USGS reports as proof that 
the country is in immediate peril from a swift takeover of our 
parks and natural areas by pythons and boas. We believe this to 
be overstated. These two reports have been widely criticized by 
respected scientists. These reports are filled with errors, 
inaccuracies, and very little actual supporting data.
    U.S. Fish and Wildlife has an evaluation process under way. 
H.R. 2811 assumes an outcome that may not be the reality. It 
does not make provisions for all of the animals already in 
captivity. I suggest policy and strong science take precedent 
over political expedience. Thank you very much for your time.
    [The prepared statement of Mr. Wyatt follows:]
                   Prepared Statement of Andrew Wyatt
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you, Mr. Wyatt.
    Dr. Jacobson.

 TESTIMONY OF ELLIOTT R. JACOBSON, DVM, Ph.D, DACZM, PROFESSOR 
    OF ZOOLOGICAL MEDICINE, COLLEGE OF VETERINARY MEDICINE, 
             UNIVERSITY OF FLORIDA, GAINESVILLE, FL

    Dr. Jacobson. Chairman Scott, Members of the Subcommittee, 
I want to thank you for allowing me to be here today to discuss 
H.R. 2811.
    As background, I would like to say I grew up in Brooklyn, 
New York. That was my home until I was 22. And I fell in love 
with reptiles not because they are all over New York City. And 
there are not alligators in the sewer system in New York. There 
never were. And so these myths about these animals get 
distorted and especially in movies.
    And for whatever reason, I was captivated by these animals. 
My father used to take me to the American Museum of Natural 
History. I would go in the reptile hall and just could spend 
hours there and to the Bronx Zoo. And then the Staten Island 
Zoo, which was unique in that almost the whole zoo at that time 
was a snake collection. It is a very, very unique experience.
    And these animals have guided me through my entire life. I 
have gone through to graduate school initially working on my 
master's and Ph.D. Working with reptiles and amphibians as my 
research animals. I had die-offs of animals in my colonies 
while doing research and decided veterinary medicine was an 
area I wanted to go into to learn more about the disease 
problems of these animals both as research animals, wild 
animals. And when I graduated from veterinary school in 1975, I 
was a wildlife veterinarian for the State of Maryland from 1975 
through 1977 working through the University of Maryland.
    And then I went on to the University of Florida in 1977 
because of its long history of herpetologists that were in the 
zoology department at the University of Florida and the 
creation of the new veterinary college. And I went there and, 
with others, built a program in zoo animal medicine, which is 
one of the top in the world, if not the top.
    And all of these experiences, I have had contacts with a 
wide variety of animals as a zoo veterinarian, from sea lions 
to elephants to giraffes to reptiles, and I have been bitten by 
a lot of animals over the years, more than most people would 
like to consider.
    But I will tell you what was the most significant bite that 
sent me in the emergency ward; people don't realize. My cat. I 
was bathing my cat. It bit me through my finger. I got a 
Pasteurella septicemia. I had to go to the emergency ward and 
be put on IV antibiotics. Most people don't realize that cats 
have some pretty potent pathogens, and they give more 
significant bites in terms of infection than probably dogs. And 
feral cats are a major issue.
    I just wanted to get that on the table so the reality of 
some of these exposures are really known, and the reality is 
that there are a lot of domestic animal exposures. And pet 
ownership is--bad pet ownership is not just sacred to reptile 
people. It extends across all the domestic animals that we 
have.
    So I was asked to look at this document and make comments 
on it because of what it may result in. And the one thing I am 
struck with this document is one--and it clearly states it up 
front; there is no hiding it, but it's not really dwelled 
upon--is their model is full of uncertainty. And there is 
probably more uncertainty in this document than there is 
certainty, and that is because the biological status of these 
animals in the wild is for the most part unknown. And in the 
wild, most of these animals are going through a contraction of 
their home range of what they occupied because of development, 
being killed by people. And, but probably loss of habitat is 
the biggest thing.
    And the other thing, which is somewhat over--it grabs your 
attention. These maps are very visually appealing of seeing an 
area in green where potentially the Burmese python could 
invade. But these maps are based on climate and climate only. 
And it is stated in here, and it is not dwelled upon, that 
climate is only one factor in the geographic distribution of an 
animal. There are many other factors that if you took this and 
layered it with all the other factors on top, you would come 
down with a very restricted range, I would expect, for the 
Burmese python. And we know there has an ecological disaster in 
Southern Florida, absolutely no doubt about that with the 
Burmese python.
    I would like to make an analogy so you can--this is a good 
analogy. The Florida panther and the Burmese python overlap to 
a great degree in their habitat. Why is that? Well, it is the 
last wild place in South Florida. As Florida panthers try to 
move north, they get killed. As Burmese pythons try to move 
north out of the Everglades, my expectation--here is what I 
propose. Get a couple of 16-foot pythons, see how long it takes 
them to cross I-10 and see if they survive. That would be a 
study that would give you an idea of how difficult it is for 
these animals to cross roads. A lot of the Florida panthers 
that were lost were lost in Alligator Alley because they were 
hit by a car which resulted in changes.
    And so if the Florida panther was just limited by climate, 
it would up in the Adirondacks. Climate does not truly 
represent why the Florida panther is only in South Florida, and 
the same could be said for the Burmese python.
    And, for me, I don't see a convincing argument 
scientifically, as a scientist, where all these other species 
are going to become established. These animals have been in the 
pet trade since I was a child, so that is 50 years or more, and 
they have had opportunity to spread over 50 years in the United 
States. And South Florida has been a disaster in a lot of ways 
because there are all kinds of introduced species in South 
Florida, not just Burmese pythons, but many other introduced 
species and introduced plants which are a threat to that 
ecosystem.
    So, in conclusion, I want to say that, in summation, I 
don't think we are on the edge of the cliff of a conservation 
disaster with the continued importation of most of these 
species. In my mind, they would have been established already 
if they were such an imminent threat because many have been 
brought in.
    That is not say that things need to be made better. And I 
think there can be better rules and regs. And given the state 
of our economy, that loss of jobs should not occur. Thank you.
    [The prepared statement of Dr. Jacobson follows:]
               Prepared Statement of Elliott R. Jacobson
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you, Dr. Jacobson.
    Ms. Perry.

TESTIMONY OF NANCY PERRY, VICE PRESIDENT OF GOVERNMENT AFFAIRS, 
    THE HUMANE SOCIETY OF THE UNITED STATES, WASHINGTON, DC

    Ms. Perry. Thank you, Chairman Scott, Ranking Member 
Gohmert, Representative Goodlatte, and other Members of the 
Subcommittee.
    My name is Nancy Perry, and I am vice president of 
government affairs for the Humane Society of the United States. 
We are the Nation's leading animal protection organization with 
more than 11 million supporters nationwide. That is one in 
every 28 Americans. And we work very hard to create a humane 
and a sustainable world, and that is a world that would benefit 
people as well.
    We are a mainstream force against cruelty, against neglect, 
and against exploitation. And we are the most trusted voice in 
extolling the human-animal bond. Our mission is to celebrate 
animals as well as to confront cruelty, and we will be talking 
about that, both ends of that today.
    We work to investigate cruelty and to enforce existing laws 
as well as to educate the public, and we are the lead disaster 
relief agency in the country for natural disasters and other 
forms of disasters. We also engage in the direct care of 
thousands of animals at our network of sanctuaries, rescues, 
rehab centers, and we have a mobile veterinary clinic.
    We really appreciate this opportunity to testify in favor 
of H.R. 2811, which will add certain pythons to the list of 
injurious species prohibited for the import and interstate 
commerce. We support the bill, and we urge that it be amended 
to include all nine species of large constrictor snakes 
identified as posing a genuine risk to people or the 
environment by the new USGS report. If some of these snakes are 
included and others are not, then the trade will simply shift 
between giant constrictor snakes, and that is a great concern 
to us.
    When Congress has acted on the trade of other dangerous 
wild animals as pets, it has acted comprehensively. You may 
recall, in 2003, Congress banned the interstate commerce of big 
cats, lions, tigers and other large cats, as pets, and it 
passed that prohibition unanimously.
    It also this session passed a comprehensive prohibition on 
primates as pets in the Captive Primate Act by a large 
bipartisan vote.
    We think that H.R. 2811 should do the same thing. It should 
address this entire category of giant constrictor snakes that 
USGS has just provided tremendous scientific background on. 
Otherwise, this Committee will have to keep coming back and 
adding species, tragedy by tragedy by tragedy.
    H.R. 2811 will not take away anyone's pet. This merely 
addresses the interstate commerce, not the possession within a 
State. It really tries to target the exotic commercial pet 
trade. So people who own these animals will continue to keep 
them, and they will retain responsibility for them.
    These animals could continue to move across State borders 
for zoological, educational, medicinal, and scientific 
purposes. This is a reasonable and moderate solution, and it 
balances private ownership of snakes with the very real and 
serious public safety and ecological threats that these giant 
snakes pose.
    Large constrictor snakes do not belong in the pet trade for 
three reasons: The risk to public health and safety; the risk 
to animal welfare; and the risk to the environment. The danger 
of keeping large constrictor snakes as pets was already talked 
about today, and it was tragically demonstrated in July when a 
2-year-old Florida girl lost her life. She was killed by a 
Burmese python kept as a pet in her home.
    Four people have actually been killed by pet pythons in the 
U.S. just since 2006, and three of them were experienced 
reptile handlers. Two of these fatalities were by reticulated 
pythons, the world's longest snake, and in fact, that includes 
the fatality that occurred near Chairman Scott's district. That 
was a reticulated python. So without an amendment to H.R. 2811, 
we will not even be addressing these snakes.
    Animal welfare of course is a major concern for us. Snakes 
are often marketed as low-maintenance pets, but the reality is 
keeping them healthy and safe and secure is very difficult. It 
requires a sophisticated level of care that many owners are 
simply not able to provide. These snakes grow very large very 
quickly, and they can outgrow their enclosure and escape. We 
have a great concern for the welfare of these snakes, for the 
pets that they can consume when they escape, as well as for the 
wildlife that they can take when they get out.
    Now, the environmental risk of large constrictor snakes was 
already well exposed and discussed in the USGS report. It is a 
300-page document that examines nine species, and it found that 
all nine pose a high or medium risk. None of them were a low 
risk. People often purchase these animals when they are young 
and manageable. So it makes sense. We can understand that many 
people think that this is appropriate to do. But the snakes 
grow so quickly that they can soon escape their own enclosures, 
and then they can even be abandoned all too often outdoors if a 
person finds them unmanageable.
    Burmese pythons, boa constrictors, and probably some 
African pythons have already established themselves and are 
breeding as invasive species in Florida. There are likely tens 
of thousands of Burmese pythons in the wild, and those put a 
lot of other already imperiled wildlife at risk.
    Other States can and will be next. H.R. 2811 is an 
important step, but if only some pythons are included, the 
trade will shift from one giant snake to another. A simple 
Google search for one of these snakes will tell you immediately 
how readily available they are on the Internet. Just look up a 
giant constrictor or a green anaconda, and you will find them 
readily available.
    HSUS truly appreciates and celebrates these animals, but we 
believe that they really need to be in their natural habitat, 
not in America's wild lands or in our communities, where they 
do pose tremendous harm to people and to the ecology.
    We really applaud Representative Meek's leadership on this 
issue, along with Mr. Rooney, and we are looking forward to 
working with this Subcommittee. We applaud the Subcommittee for 
its interest in this issue, for holding this hearing, and we 
would like to work with you for a comprehensive solution. Thank 
you.
    [The prepared statement of Ms. Perry follows:]
                   Prepared Statement of Nancy Perry
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Mr. Scott. Thank you, Ms. Perry.
    Mr. Horne.

     TESTIMONY OF GEORGE HORNE, DEPUTY EXECUTIVE DIRECTOR, 
  OPERATIONS AND MAINTENANCE, SOUTH FLORIDA WATER MANAGEMENT 
            DISTRICT, MSC 5100, WEST PALM BEACH, FL

    Mr. Horne. Mr. Chair, Committee, thank you for inviting me 
to represent the South Florida Water Management here today.
    At the South Florida Water Management District, we are 
charged with protecting and restoring the South Florida 
ecosystem and America's uniquely diverse Everglades River of 
Grass. We find ourselves, in doing so, combating the Burmese 
python and the others which have invaded.
    One of the most critical things to South Florida--we are 
charged with restoring the Everglades. And in doing so, one of 
the most critical things that are there is bird counts. I mean, 
and where do we find these snakes but in the exact place where 
we are trying to count birds and ensure that we are doing that 
restoration process. And we actually know that by putting 
tracking devices on them. We have found those in rookeries 
and--which is quite disturbing, because the birds can leave the 
nest. If many of them come in there and they see them, and of 
course, then there are no hatchlings that year, and we lose 
that whole part of our ecosystem.
    The snake that you see there in the picture, there was 59 
eggs in that snake; and 58 of those 59 eggs were fertile. Many 
of the snakes we find are small. If you find any big ones, you 
say, well, maybe someone released that. But we actually do 
necropsies on those, and the things we find in them are all 
those species out there that we are trying to protect. The wood 
storks have been there. Deer have been there. Alligators of 
course, and the things you see on the list. Everything that is 
there are things that have actually been depicted that we found 
in them when we have done necropsies.
    And as far as how they travel, they can travel a mile and a 
half a day. I mean, that is pretty amazing. We have an employee 
that his sole job is to go out and look on a daily basis, and 
he basically rides the Tamiami Trail that crosses the 
Everglades. Almost on a daily basis he finds a dead snake on 
the road. He also runs down the canal, and he found the one 
that you have seen here today, as well as the 16-and-a-half 
footer as the largest one we found so far. The one that is here 
is basically a juvenile. It is not grown yet. You can only 
imagine when you see what is there, what are they going to eat? 
What is going to be left of the Everglades when they are truly 
done?
    And once the food source is gone, they are going to move 
from the Everglades into communities, and one can only imagine 
what happens there. Pets won't be safe. We know that they have 
actually gotten some small farm animals that border along the 
Everglades, and actually the National Park Service was actually 
there and actually captured one after it just ate a gentleman's 
goose in his yard. Because we told him--what are you all doing? 
We are tracking a snake. And, well, it just ate a goose. He 
goes, I am missing a goose. And they found it only a couple 
feet away.
    So it is a real threat. And it is amazing, having spent 37 
years working in and around the Everglades, the fact that this 
one guy basically has taken a third of the 1,248 snakes that 
have been taken in cooperation with ourselves and Everglades 
National Park. That is truly amazing. You know, when you see 
the Burmese python on the road--you see far less of the native 
snakes. You don't see them in the same quantity you find the 
pythons.
    So we know they are moving. We know they have been in areas 
all over the State. I think anyone would be foolish to believe 
that in other national areas that there are not Burmese python 
populations, that people have released them and they are going 
to breed. As long as there is a food source and they can find 
another like species, they are going to be there. They are 
going to establish.
    We found a nest with hatchlings. It truly is astonishing. 
And the South Water Management is committed to try to take 
these out, and we have been out there for a long time. When we 
sort of seen them and realize how large they are, we got quite 
concerned and committed this full-time FDE just to look. And it 
is amazing the things that we have learned about them.
    And it is amazing the things that we have learned about 
them. You know, where do we go? We certainly need a bill that 
is going to help protect us. I don't think we are ever going to 
get rid of the Burmese pythons at this point. They are firmly 
established.
    We have the African rock python, which we know is breeding 
because we found yearlings of that species as well. They are 
going to breed in the wild. As long as there is a food source 
they are going to flourish. I mean, they are very adaptive. 
They are ambush hunters and they are going to be there. You are 
not going to see them a lot, but we have found them, we have 
taken one right down the canal bank from where families with 
small children were fishing and we have taken the snake down 
and said have you seen any of these, and most people don't 
because they camouflage themselves quite well. But the reality 
is they are there.
    One of our Wildlife and Fish Commissioners was telling me 
he had never seen one until we started sending pictures to him 
almost of a daily basis of the ones that we had taken, and he 
could not believe it, which pushed the Florida Fish and 
Wildlife Commission to do more and to go out and start the 
hunts. The people that have just started looking for them, only 
found the 37 this year, but they just started. I mean, and it 
is one of those things that you have to, you know, kind of 
develop a theme for and looking at them and actually being able 
to find them.
    I think, in conclusion, I would like to say the South 
Florida Water Management District and other agencies is trying 
to contain the documented damage and growing threat of Burmese 
python and other invasive animals in Florida. The flow of 
potentially harmful exotic animals across our border continues.
    Just for one example, roughly 144,000 boa constrictors were 
imported into the United States between 2000 and 2007. Federal 
action is needed now to address the immediate threat posed by 
the giant constrictors which have and are likely to establish 
in our Nation's wilderness areas.
    Without prevention, preventative measures to limit the 
future introduction, we will continue to inherit costly and 
permanent management liabilities at taxpayers' expense. Quite 
simply, prevention is the only financially efficient, it is the 
only feasible means of controlling invasive and adaptive 
cryptic organisms like the Burmese python.
    While the amendment does not meet the larger need to 
modernize the injurious wildlife provisions of the Lacey Act, 
it is an important stopgap to limit the importation of high 
risk giant constrictor species, and it is a sorely needed 
measure to help us protect and restore the Everglades 
ecosystem.
    [The prepared statement of Mr. Horne follows:]
                   Prepared Statement of George Horne
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you. And I want to thank all our witnesses 
for their testimony. We will now pose questions under the 5-
minute rule. And I will start by recognizing myself for 5 
minutes.
    Mr. Ashe, we have heard the term, all nine species of 
constrictor snakes. Are there large snakes that are not 
constrictor snakes? Are there any large snakes that are not 
constrictor snakes?
    Mr. Ashe. I am not an expert on snakes, Congressman, and I 
am thinking there are large snakes that are not constrictors.
    Mr. Jacobson. There are several. You look at venomous 
snakes, the King cobra is listed at 16 foot, 18 foot. And then 
you get into the Bushmaster, which is up at about 12 feet from 
Costa Rica, Central America, and South America. So there are a 
couple of venomous snakes that get up to that size. Some of the 
snakes related to the Indigo snake that is Florida, there is a 
whole series of those snakes that go all the way down through 
Central America and into northern South America, and they get 
up to 8 to 10 feet. And so they are a sizable snake.
    But generally, the ones mentioned in this report, not only 
is their length but their girth. They get, you know, heavy. 
There are other long pythons from Australia that are much 
thinner and just don't have the impressive size of these 
snakes.
    Mr. Scott. Mr. Horne, you have indicated that you have been 
observing this phenomenon. Have you seen a significant increase 
over the last few years?
    Mr. Horne. Yes, sir, we have. Really, this past year we 
have started seeing them, the road kills. I mean, before you 
would see one occasionally. But let me--literally, this week 
there has been four that our employees have sent back pictures 
of because we document GPS every one of them that we find. And 
they are truly all over. And particularly we find yearlings and 
we find up to about six footers. The larger ones we don't 
typically find as road kill but the yearlings when they are 
moving out and moving to other areas we do find them.
    Mr. Scott. Have you seen a significant increase over the 
last few years?
    Mr. Horne. Yes, sir. The others that we were finding we 
were actually going out and hunting, we were finding them on 
levees. These actually we are finding are road kills where they 
have just been literal run over crossing the road.
    Mr. Scott. Mr. Ashe, you indicated the term ``economic 
analysis''; what is involved in that?
    Mr. Ashe. We would do, in the context of our compliance 
with the Regulatory Flexibility Act and executive orders on 
economic--looking at economic implications of regulatory 
actions, we would, in the process of moving our Lacey Act 
determination forward, we would look at the economic impact of 
a Lacey Act determination. So as part of our administrative 
process----
    Mr. Scott. I mean, what is considered on economic impact?
    Mr. Ashe. Excuse me, sir?
    Mr. Scott. What is considered when you talk about economic 
impact.
    Mr. Ashe. Many of the things that Mr. Wyatt spoke to in his 
testimony. We would consider the impact on small businesses in 
particular, you know, revenue, business revenue related to 
trade in these species and the implications of regulating trade 
for business enterprises.
    Mr. Scott. And would you, would the impact on the ecosystem 
and danger to humans be part of that analysis?
    Mr. Ashe. Absolutely. That is the main piece of our Lacey 
Act determination, would be whether the snakes present a danger 
to humans, to ecological systems, and to endangered and 
threatened species.
    Mr. Scott. Mr. Wyatt, do you want to respond to that on the 
economic analysis? And also respond to what would happen, what 
is supposed to happen to these snakes as they grow.
    Mr. Wyatt. Well, it would have a significant impact on the 
American economy. There are approximately 5 million Americans 
would be negatively impacted with the passage of this bill if 
it were to include all nine species. You are talking about 
thousands of small business owners and we are talking about 
people who are not, don't have 401(k)s. They are small business 
people who have plowed all their money back into their 
projects, and so not only would this bill bankrupt them and 
stop them, and eliminate their ability to make a living, but 
their asset values would basically go to zero overnight. And 
that actually creates quite a problem of logistics that this 
bill does not account for in the fact that there would be 
approximately 4 million. We are not talking about import here. 
The import is fairly insignificant to the trade in reptiles, as 
we represent it. We are talking about the captive bred trade 
and very high quality, valuable animals, and there is about 4 
million of them in captivity of them right now. This bill makes 
absolutely no provision for what would happen to those animals.
    It was spoken to by the lady from HSUS that everyone would 
be able to keep their animals. But when you are invested in a 
business and your asset value goes to zero, and now you are put 
into a position where you have to care for many animals that 
are not going to be of economic value to you anymore, it 
creates quite a logistical problem and is going to open up a 
can of worms into what is going to happen with these animals.
    The best tool to address that issue is the trade, the 
captive bred trade that is continuing to go on, because we work 
with very sophisticated standards, and we have worked at the 
State level in North Carolina, and we are looking at 
introducing a bill into the Chairman's home State of Virginia 
in 2010 and South Carolina as well that puts professional 
standards on how these animals are housed, cared for, safety 
protocols, escape recovery plans, and that type of thing.
    So you are not talking about a casual pet in the context of 
these particular animals. You are talking about an animal that 
needs to be looked after in a certain way and professional 
standards are required as a matter of State law.
    We are also developing a national accreditation system 
where you could have a more uniform way to address that across 
the board. And we would welcome the opportunity to discuss with 
the Committee, turn this into a policy discussion.
    Mr. Scott. Well, if somebody has one of these pets, what 
happens when the pet continues to grow?
    Mr. Wyatt. Well, you would continue to take care of the 
animal. I mean, they grow to certain sizes, but, I mean, the 
people who are serious about this and would adhere to these 
kinds of regulations that are widespread across the United 
States, most States have regulations in place. The State of 
Florida has professional standards. The State of Texas has 
professional standards. So if----
    Mr. Scott. Is there any limit as to who can own these in 
their homes?
    Mr. Wyatt. Absolutely. Absolutely. If you are not 
maintaining the animals at a certain level of security, 
accounting for them with the documentation, micro chipping, 
providing for escape prevention and recovery protocols, safety 
protocols, et cetera, these are all things that have been 
accounted for and they exist in Florida right now. It is a 
fairly new provision that has barely had a chance to take 
effect, but we are bringing more and more people into 
compliance all the time.
    Mr. Scott. Provision in what? Are people licensed to have 
these pets?
    Mr. Wyatt. Yes. I believe though Dr. Elliott wants to 
address this.
    Mr. Jacobson. I am permitted. I have a lot of reptiles that 
I keep at home, and including venomous snakes. And they fall 
under the same permitting as the giant constrictors, and most 
of them are on State permitting, which has become much more 
elaborate in Florida over the last couple of years. Disaster 
plans have to be filled out. You have to list a veterinarian 
who is going to be involved in, if it is an elephant or 
whatever, to being able to mobilize the animal to move it in 
case there is a hurricane.
    There are people in Florida with elephants and lots of 
cats. And so there is a pretty rigorous permitting. And it 
seems like every time the law enforcement comes over I am away. 
And then my wife has to take around the agent, and she then 
discovers I have a new snake.
    Mr. Scott. Mr. Gohmert.
    Mr. Gohmert. Thank you. And I do appreciate all the 
testimony and expertise. And Dr. Jacobson, the phenomenal 
amount of education and training and experience you have. I was 
an Eagle Scout, got some training there and in science classes, 
but also as a father of girls who loved cats. You are the 
expert. I am sure it is necessary sometime, but I would give 
you the same advice I gave my daughters. Quit bathing those 
cats. You are going to get hurt.
    But I was curious, what species or specimen is worth 
$100,000? I think Mr. Wyatt mentioned that.
    Mr. Jacobson. The herpeticulture trade, and Andrew will 
have further comment on it. I followed it and what it has 
turned into is designer reptiles, animals with unusual colors, 
whether they are albinos or they have certain genes that are 
missing and take out a pigmentation and cause a different color 
change, no different than people have been doing breeding of 
fish, of koi and goldfish with different color traits. And 
certain color traits, because they are the first of that color 
trait, and some of them are very--I mean, beauty is in the eyes 
of the beholder, and there is a color beauty in some of these 
animals. And that is where the trade has really gone to a large 
degree. And it has gone to smaller snakes. There are very small 
pythons. Not all pythons are big. But the bulk of the industry 
now is the ball python and all the color morphs of ball pythons 
they go from 10K to 30K or 40K. But as more and more of those 
get bred then the price comes down and then people are looking 
for something else to breed that has a different variant in it. 
And that is how a lot of the herpeticulture business has gone 
over the last 15 years.
    Mr. Gohmert. Well, that brings me to another question. What 
is the difference--and this is for anyone. What is the 
difference between the snakes that are included in the ban in 
the bill and those that were excluded by the amendment? What is 
the distinction?
    Mr. Wyatt. Well, as far as the ones that were, the ones 
that are being proposed to be put back in the bill, you know 
the boa constrictor makes up a huge amount of the trade in the 
United States. The two biggest components of trade in snakes in 
the United States is the ball python and the boa constrictor. 
And you were asking about animals with a high value. There has 
been ball python morphs that have sold for as much as $100,000 
for one individual specimen, and that is where a lot of the 
trade is.
    So when you start talking about stopping the trade in those 
animals, then you are talking about a lot of money and a lot of 
people. If you are talking about the Burmese python, that is 
much more limited. You know, there may be, you still have a 
sizeable number of animals in the United States, maybe 100,000 
or so, but the trade is not nearly as widespread and----
    Mr. Gohmert. But as far as physical distinctions or killing 
propensity, those kind of things, is there a distinction 
between those that are being sought to keep in and those that 
are banned? Ms. Perry?
    Ms. Perry. Actually I think a really important point is 
that the reticulated python is responsible for half of the 
deaths in the last few years, and that snake is not included 
currently with the amended version. And, in fact, in a recent 
USGS press release they talk about how that snake is known for 
unprovoked attacks in the wild.
    So I think we are really overlooking some important 
species. These are all giant constrictor species.
    Mr. Ashe. Mr. Gohmert, I think one important aspect as well 
from the standpoint of enforcement, a lot of these shakes, 
especially when they are younger, and this is part of the USGS 
risk assessment, is they are difficult to distinguish. And so 
from the standpoint of an agency that would have to do 
enforcement, listing only a segment of these snakes, 
particularly because they were all identified as having either 
medium or high risk, but listing only two of them would 
complicate our enforcement because especially when they are 
smaller they are difficult to distinguish.
    Mr. Gohmert. Well, there was--Congressman Meek mentioned 
that there are no natural predators in Florida. And I was 
wondering you know, are there natural predators to the large 
pythons? And how is the population controlled in countries 
where they are native?
    Mr. Jacobson. I would like to comment because that is a--in 
the report it is mentioned on page 6, this lack of predators. 
And the fact is these animals don't hatch out at 400 pounds. 
They hatch out at about 20 inches or 24 inches maybe. And there 
are a multitude, I will guarantee you there will be a multitude 
of animals that will prey upon them. And when you look at 
replacement of most animals to have a stable population, you 
are looking at a replacement of two over the life span. When 
you look at see turtles with 100 and 100 plus eggs, most of 
those babies are dead before they make it out to sea. And so 
that is the process in the real world. And I would expect that 
storks to kites to king snakes, indigo snakes, raccoons, wild 
pigs, feral pigs down there, which are real problematic also, 
conservation wise, they would eat up snakes. And none of these 
pythons is going to eat a big, big alligator. And there is just 
no, that 6-foot alligator yes, and that animal died trying to 
eat that alligator. And that may be the limit to what a big 
python can contain. And when you see alligators that are 13 
feet, they can prey on snakes smaller than them. They can.
    And so that statement to me is not correct. It is not 
correct. It doesn't account for all the babies and what happens 
to them the first year of their life.
    Mr. Gohmert. I had a second part to the question though. If 
there was, how populations were controlled in countries where 
they are native.
    Mr. Jacobson. Well, they are contracting. In almost all of 
these cases, and you will see this almost worldwide, that 
populations of all kinds of animals, including these big 
snakes, are becoming more and more condensed as habitat is 
lost. And these snakes generally don't do well with humans, and 
they get killed off.
    Mr. Gohmert. Thank you very much.
    Mr. Rooney. Thank you, Mr. Chairman. Mr. Ashe, Chairman 
Scott was asking you about the economic impact on, and you were 
talking about with regard to business. I am curious with regard 
to Florida's tourism economy. Does that weigh into the factor 
of your economic impact?
    Mr. Ashe. It would. Congressman, I think one thing that is 
important as we think about economic impact is that, as has 
been talked, discussed a little bit, we are talking about a 
constrained natural environment, the Everglades, on which the 
United States citizens and the citizens of Florida are 
expending billions of dollars to restore in large part to 
conserve species of wildlife that are greatly imperiled and 
listed under the Federal Endangered Species Act. And if we 
can't control the source of, this source of potential threat to 
those species then the other citizens and the other economy of 
the State of Florida has to absorb that impact as we then try 
to conserve those threatened and endangered species.
    So it is not just simply a question of what would be the 
impact of listing these species under the Lacey Act, but what 
would be the economic impact of not listing them and not 
controlling them because then more of the burden for Florida 
panther recovery and wood stork recovery and Everglades kite 
recovery and Florida wood rat recovery will fall on other 
aspects of the Florida economy.
    Mr. Rooney. And Mr. Wyatt, you were speaking of the 
research and the regulation and the nature going into the 
Carolinas. And you know, one of the concerns or questions I 
guess I have for you is that from what I understand in Florida 
now we are tagging these snakes that are issued as pets or sold 
in the free market. There is regulation with people that want 
to own, as you said. But some of these snakes, if not a lot of 
these snakes, and maybe Mr. Horne can weigh in on this, that 
are being found aren't the ones that have the micro chip in 
them or aren't the ones that are tagged. They are the ones that 
are being born. And I guess my concern here is are these snakes 
getting out of control in the Everglades with the picture that 
we see there with the eggs. And it has nothing to do with how 
well you are doing your job or the snake industry has been 
doing their job. We have got a problem in South Florida that 
has gotten out of control. Do we have a responsibility to do 
something about that.
    Mr. Wyatt. I don't disagree, Congressman Rooney, that 
Burmese pythons are a problem in South Florida. What level of 
problem they turn out to be, the science will discover in time. 
The thing about it is that we are talking about some separate 
issues here, and there is no doubt that there is an established 
population of Burmese pythons in south Florida.
    One of the best tools that Florida has to help address 
those issues is the people that have the most experience in it. 
You know, oftentimes, in these government agencies that are 
tasked to take care of these issues, the personnel tasked to 
handle these issues simply do not have the expertise, as 
illustrated by Mr. Ashe, in how to deal with these animals. 
Well, you have got a large pool of knowledge here accumulated 
over years and years and years and years that you can tap into 
as far as--but one of the things is snakes can be tracked by 
dogs. And that is not something that has been fully explored 
because you haven't brought in people that have the experience 
on how to train dogs in that manner. You know, you can't find 
panthers without dogs either. It is hard to--you know, so these 
animals can be trained to track them down. And there is a 
myriad of ways that you can start to address the issues that we 
would love to become part of the policy discussion on how to 
help Florida address these things.
    And as far as the provisions that Florida has already put 
in place, it is a matter of public relations and public 
education and bringing more and more people into compliance. 
And that has been problematic. But the bill, the statute has 
not been in place that long, and we are working with the State 
of Florida right now, with FWC, to bring a higher profile to 
the statutes that are in place, and bringing more and more 
people into compliance, and that will lead to less and less 
problems.
    Mr. Rooney. I appreciate your offer to extend that 
knowledge and expertise, and I think it should be tapped into 
to the other members of the panel.
    Real quick, before I run out of time, Mr. Horne, can you 
give us a rough estimate of South Florida Water Management and 
what has been spent to actually remove these snakes from State 
land?
    And then I have a really quick follow-up question, which I 
am going ask right now because my time is out. You talk about, 
you know, how many snakes that we have caught with the trappers 
that you have. And one of the questions that I always get from 
the public, so this is a question that I am relaying from my 
constituents. We have hunting seasons for alligators. We have 
tag limits, bag limits, whatever you want to call them. And the 
estimates for the Burmese python in the Everglades, you know, 
can get into the hundreds of thousands, depending on who you 
are asking, who you believe. Why don't we have a system where 
it is open to the public with regulated bag limits and things 
like that like we have for alligator hunts? Why are we only 
using South Florida Water Management contracted people in the 
limited basis we are now?
    Mr. Horne. Well, basically it is one full-time FTE, is 
basically what we are spending on it now. And we have 10 that 
are trained to actually identify, but only one to truly take 
the snake. Because of the concerns with the larger snakes and 
their ability to be injurious to people, we do not allow except 
for the one person which is licensed to actually take them with 
a gun.
    The reason Fish and Wildlife is concerned about opening to 
anyone is because they want people that are trained, because 
the ability for them to get hurt is pretty dramatic as well. 
They are hard to see, they camouflage very well. Actually, the 
gentleman that hunts them for us, he has a unique ability; he 
can smell them, and he sees them quite well, which, you know, 
everyone can't do that. I mean, it is quite unique to go on a 
hunting trip with him when he rides down and basically he just 
rolls down the levee in a pickup truck and he can spot them in 
the bushes or he will smell them. He has actually said many 
times I have been out, I smell one here.
    So they are hard to see, they are hard to track and of 
course it is in the Everglades. I mean, it is not easily 
accessible and typically, you know, they are down low. They are 
not up where you can easily see them, so people don't look for 
them.
    Mr. Rooney. I thank the Chairman, and I will yield back. 
But I would request in any future meetings that we have the 
snake smeller testify next time. Please. I would love to hear 
from him.
    Mr. Horne. He is quite a character.
    Mr. Scott. We have been joined by the gentlelady from 
Florida who has also been very active in this issue. Gentlelady 
from Florida, Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. And first 
let me take this opportunity to commend my colleague who 
testified on the first panel, Congressman Meek, and my 
colleague, Mr. Rooney, from the great State of Florida. I just 
have a couple of questions.
    Mr. Wyatt, where do you live?
    Mr. Wyatt. I live on the Outer Banks of North Carolina.
    Ms. Wasserman Schultz. And so it is safe to assume that you 
don't live near the area where there are now 100,000 Burmese 
pythons or African rock pythons overrunning the Everglades, do 
you?
    Mr. Wyatt. No, ma'am, I do not.
    Ms. Wasserman Schultz. Do you have children?
    Mr. Wyatt. I am here representing the United States 
Association of Reptile Keepers, which has our largest 
membership in your State.
    Ms. Wasserman Schultz. Do you have children?
    Mr. Wyatt. Yes, ma'am.
    Ms. Wasserman Schultz. I assume they don't live near the 
more than 100,000 non-native Burmese pythons and African 
pythons that have overrun Everglades.
    Mr. Wyatt. No, ma'am.
    Ms. Wasserman Schultz. Okay. So it is safe to assume that 
while you represent an organization that supports people being 
able to keep as many reptiles as they want to, that it doesn't 
really affect you or most of your members because they don't 
live anywhere near the real problem. Correct?
    Mr. Wyatt. Well, quite a few of our members do live right 
around the problem and in fact it is our members that have 
helped the Florida Fish and Wildlife establish the python 
removal plan and have the greatest level of expertise in 
dealing with the pythons in South Florida.
    Ms. Wasserman Schultz. Okay. Let me ask you a couple of 
questions as it relates to your view because you say you have 
recommendations to help address the problem. How are we going 
to limit the likelihood of continued abandonment and other 
irresponsible handling of these animals because, you know, 
while you might think there is a responsible way to, in your 
mind, address this problem, which is somehow different than 
banning the 2 or 9 or 45 species of pythons that are non-native 
that have been released into the environments in which they 
don't belong, but yet they thrive and threaten to overrun the 
ecosystem? What is it that you are recommending to your members 
and what aggressive proactive steps are you taking to ensure 
that your members who are the keeper of these pets are making 
sure that they are not being irresponsible? Because the reason 
that we have this problem is because of the people who keep 
these pets and can't handle them anymore and just let them go 
into the environment. So what guidelines and what steps is your 
organization taking to make sure that that irresponsible 
behavior doesn't continue to make this problem worse?
    Mr. Wyatt. Well, Florida is already on the right track by 
instituting professional standards for maintaining these 
animals, okay. You cannot----
    Ms. Wasserman Schultz. But I would like to know what your 
organization is doing. Since you are the one that is advocating 
on behalf of people being able to keep these pythons, what do 
you provide in terms of guidance to your members?
    Mr. Wyatt. Well, we have a model State legislation that we 
just passed in North Carolina this year that we are introducing 
into Virginia and South Carolina, and similar programs are in 
place in many States around the country.
    Ms. Wasserman Schultz. But I note that you didn't say 
Florida. Is there a reason?
    Mr. Wyatt. Florida has established their system which we 
used as a model 2 years ago. It is a matter of bringing more 
and more people into compliance. The job of public relations 
may be----
    Ms. Wasserman Schultz. But you would agree that once you 
have 100,000 snakes overrunning an ecosystem, that the horse is 
out of the barn, so to speak. So let me ask another question.
    Mr. Wyatt. But it does provide a framework to be able to 
address the situation. It is much like drinking and driving is 
against the law. Okay? If you drink and drive you are going to 
be----
    Ms. Wasserman Schultz. Okay, with all due respect, what 
details, specifically what steps, proactively, are you taking 
to make sure that your members don't release these, quote/
unquote, pets into the environment when they can't handle them 
anymore?
    Mr. White. By requiring professional caging standards, 
safety protocols, safe recovery----
    Ms. Wasserman Schultz. What ensures that they do that?
    Mr. Wyatt. Excuse me?
    Ms. Wasserman Schultz. What ensures that they follow those 
guidelines.
    Mr. Wyatt. Well, there is no overriding force that will 
force anyone to obey any law. But by providing the framework 
and the remedy of legal recourse through the court system, that 
is how this country operates.
    Ms. Wasserman Schultz. Isn't that the reason that we need 
the standards in the first place because you can't be in every 
pet owner's home.
    Mr. White. That is correct and that is why we are 
implementing those standards around the country in the very few 
places where they are not already implemented.
    Ms. Wasserman Schultz. Okay. Can you describe for me what 
you mean by your more measured approach than the approach that 
this bill takes? What is a more measured approach than not 
allowing these pythons to be imported into the country?
    Mr. Wyatt. Well, this is not just about import. It is about 
interstate transport, and that would destroy the trade. So it 
is not just about import.
    Ms. Wasserman Schultz. What do you mean by more measured 
approach?
    Mr. Wyatt. Well, H.R. 2811 will not succeed in providing 
the remedy that you seek. Okay, it is not going to change 
anything in the Everglades.
    Ms. Wasserman Schultz. But you are not defining anything. 
What is your--you say in your testimony that you think we 
should take a more measured approach. Define that for me.
    Mr. Wyatt. By turning this into a policy discussion instead 
of trying to discuss this in the realm of political expediency. 
There is a scientific process in place that US Fish and 
Wildlife Service----
    Ms. Wasserman Schultz. Policy discussions don't prevent 
snakes from going so large that they swallow alligators, okay? 
They don't.
    Mr. Horne, thank you for being here. It is a real pleasure 
to work with the South Florida Water Management District, and I 
appreciate your expertise here. The South Florida Water 
Management District is obviously working hard on Everglades 
restoration. And I wonder if you could share with the Committee 
just how difficult it has become to focus on your restoration 
efforts, which I know is all consuming, while simultaneously 
having to deal with and divert resources to dealing with the 
python problem.
    Mr. Horne. Well, since we work in the Everglades, we find 
ourselves, you know, training staff to look for snakes and 
protect themselves against the snakes. We have found the snakes 
in pump stations. We have found the snakes inside water control 
structures. I mean, in the beginning when we first started 
seeing them, some of our staff, which thought they were doing 
the right thing, actually tried to capture one which was quite 
large and it got loose in the truck and they had to abandon the 
truck. We have had scientists taking water samples actually 
chased from the water's edge all the way back to the vehicle by 
a very large snake and ended up running over it in a truck.
    So we are confronted with something that we never had to 
deal with before. And then you put on top of that as part of 
the Everglades restoration, one of our critical measures are we 
being successful is bird counts. And we know for a fact and we 
have photographed them and tracked them, those snakes were in 
the rookeries when the birds are there, you know, which makes 
them abandon their nests. It means that we are going to fail. I 
mean, there is nothing we can do about that. And it is very 
frustrating and we don't really know how to deal with it 
because we are sure, relatively positive we are not going to be 
able to get rid of these snakes. They are going to be there 
forever. And that means we are going to fail.
    Ms. Wasserman Schultz. Mr. Chairman, I know my time has 
expired but if I can just ask Mr. Horne one more question. Are 
you concerned that--tell me what you think the consequences are 
to not banning the further import of these kinds of snakes.
    Mr. Horne. I think there is going to be future populations 
of different kind of snakes. I mean, we already know that we 
have snakes in Miami-Dade County on the Deering Estate. We have 
rock pythons in the Bird Drive Basin. We have yellow anacondas 
in Big Cypress National Preserve and Myakka River State Park. 
We already know they are there and different species are there. 
It is only a matter of time and food source that those 
populations explode as well.
    And knowing from that picture the number of eggs that those 
things lay, the parent snake stays with them until they hatch, 
so they are guarded, so there is not any other predator that is 
going to come and eat them until they hatch, we are doomed. We 
are truly doomed.
    Ms. Wasserman Schultz. Mr. Chairman, once or twice a year, 
I look in my backyard, and we live on a lake that connects to 
the Everglades. I live about 2 miles from the Florida 
Everglades. And once or twice a year I look out my backyard 
door and see an alligator lounging on the edge of the bank of 
the lake. Sometimes you see the top of their head, you know, 
the eyes sticking out of the top of the water. This has already 
occurred, and it is only a matter of time before--we have--in 
south Florida, we literally have a line that you can see right 
when you fly into south Florida, you look at the Everglades, 
there is a development line that puts houses on one side of it 
and the Everglades on the other. And it is only a matter of 
time before snakes like that one, snakes like this one end up 
in the backyards of folks with children. There are children 
that have already been eaten and we will hear more horror 
stories unless we take the steps that this bill suggests that 
we should.
    Thank you for your indulgence. I yield back the balance of 
my time.
    Mr. Scott. Thank you. We are going to have another round. I 
would like to ask Mr. Ashe, is there any question that the 
population--I'm sorry. Thank you.
    My colleague from Virginia. I am sorry.
    Mr. Goodlatte. Thank you, Mr. Chairman. And thank you for 
holding this hearing. It is definitely a change of pace from 
health care reform. Can Mr. Ashe or Mr. Horne tell me what 
Florida laws exist right now to deal with this? What does 
Florida law allow with regard to the ownership of these?
    Mr. Ashe. Well, basically you have to have a yearly permit 
that costs $100 per year, and you have to have your snake 
implanted with a device, a micro chip. But, you know the 
reality is----
    Mr. Goodlatte. Let me just ask you, why hasn't Florida 
banned these snakes? I mean, I am hearing Dr. Jacobson point 
out that there are very limited places where the snake can 
survive in a habitat, a natural habitat. Obviously, Ms. Perry 
has attached a very impressive list of incidents regarding 
large snakes to her testimony, and they are all over the 
country. But I don't find that there is a large population of 
them anywhere in the natural, in the wild, other than in south 
Florida.
    So I guess my question--I don't object to adding this 
particular species to the legislation that we already have. But 
I am wondering why Florida hasn't banned these snakes outright 
if they are this magnitude of a problem.
    Ms. Perry. Congressman, Florida is actually considering 
legislation to enact a ban right now.
    Mr. Goodlatte. Has any State enacted legislation to ban 
them?
    Ms. Perry. Yes. Hawaii prohibits ownership of snakes. 
Obviously, they, as an island they have unique problems. 
Illinois bans life threatening reptiles, including constricting 
snakes 6 feet or more in length. Iowa bans reticulated pythons, 
anacondas, African rock pythons. Massachusetts bans African 
rock pythons, reticulated pythons and anacondas. Montana bans 
African rock pythons, amethystine pythons, green anacondas, 
Indian and Burmese pythons, and reticulated pythons. New Jersey 
bans anacondas and New York----
    Mr. Goodlatte. That is enough. So Florida could take action 
here that would definitely help in this regard?
    Ms. Perry. Yes, and I think they will.
    Mr. Goodlatte. Now, on the issue of whether we should go 
from one or two, I guess the legislation now contains two of 
the large snakes. And Mr. Ashe, you have proposed and Ms. 
Perry, you proposed that the legislation ought to be amended to 
cover nine species. I take it those, are those all nine species 
that exist, or are there nine that we know that there are 
species that have been imported in the United States?
    Mr. Ashe. Those are the nine species that were covered by 
the U.S. Geological Survey's risk assessment, so those are the 
nine species with which we have both field experience and 
scientific discoveries.
    Mr. Goodlatte. All right. Mr. Wyatt and Dr. Jacobson have 
suggested that if you ban the two, the trade will shift. And 
you have suggested that the trade will shift to the others. Do 
we have any information in the study or elsewhere about what 
the various--I mean, are Burmese pythons the overwhelming 
favorite and these others are much smaller? Or is the ownership 
of these species distributed across a wide area?
    Mr. Ashe. I think, as Mr. Wyatt said, no, they are greatly 
distributed. Our information for 2008 in terms of importation 
of these species, we had a total of 31, over 31,000 of these 
nine species were imported into the United States legally.
    Mr. Goodlatte. Do you have it broken down by species?
    Mr. Ashe. About 24,000 of those were boa constrictors.
    Mr. Goodlatte. So not the Burmese pythons?
    Mr. Ashe. But that is the point, is that----
    Mr. Goodlatte. I understand. But in the wild, the problem 
that the act is designed to cover, is it only the Burmese 
python that is prevalent in south Florida in the Everglades?
    Mr. Ashe. The boa constrictor. Actually there is a 
naturally reproducing population of boa constrictor established 
in South Miami, and so we are finding wild and potentially 
reproducing individuals of most of these species in the area 
now. But once they are established, it is too late really. Just 
like we have seen with the Burmese python, once these species 
are established----
    Mr. Goodlatte. Well, let me ask you about. I mean, this is 
a serious problem obviously, not just for the environment but 
also for--Ms. Perry's list includes a number of instances of 
people being killed. Many of them are in homes of people who 
are the pet owners, so that obviously raises some eyebrows. But 
I think that could be left to State legislation to cover what 
people can own in their homes.
    But what are we doing--Mr. Rooney tells me that his 
legislation would allow for people to go out and trap these 
animals and exterminate them in the wild. What are we doing to 
aggressively accomplish that goal? It seem to me it would be a 
desirable goal to eradicate this non-native invasive species 
that is in the Everglades and other places in south Florida.
    Mr. Ashe. It is absolutely the proper goal, once they are 
established, to try to control those populations. But what we 
have learned with invasive species in general is they are 
difficult to control once they are established in the wild.
    Mr. Rooney asked the question earlier about hunting. And 
the Big Cypress Preserve has opened the preserve and allowing 
hunters in the preserve to take pythons. And so far, in 2009, 
that has resulted in one python being killed. I mean, they are 
very cryptic animals. They are hard to find. And so you, as Mr. 
Horne mentioned, you really have to be a skilled individual to 
go out and find these.
    So what that means is public agencies like the Fish and 
Wildlife Service, like the Park Service, like Florida Fish and 
Game Department, have to expend their valuable, precious, 
limited resources.
    Mr. Goodlatte. I understand. Let me let Mr. Wyatt and Dr. 
Jacobson respond.
    Mr. Jacobson. I would like to make a comment and to 
reiterate what Andrew said a while ago. I was on the Florida 
Panther Recovery Team for 2 years, two seasons in the mid-80's. 
I went down and served as a veterinarian on the team and got to 
know the tracker, Roy McBride, very well. And if it wasn't for 
Roy McBride and his dogs, there would have been no panthers 
found. And that is in a semi-aquatic, aquatic habitat.
    The report downplays dogs because of it being a semi-
aquatic habitat. And there is no reason for me to believe that 
dogs would not be as effective. They may not eliminate, but 
there is an opportunity to really do something because dogs are 
now trained to smell for bed bugs in beds in hotels. A lot of 
people don't know about that, the problem with bed bugs in 
hotels. But there are dogs now trained to smell one egg of a 
bed bug in a mattress. There are dogs that are used----
    Mr. Goodlatte. I am convinced of the remarkable 
capabilities of dogs, and I think they ought to be utilized to 
find these snakes.
    Mr. Jacobson. They need to be utilized and I will expect 
that the identification of animals in the wild is just one that 
will be many times greater than that.
    Mr. Goodlatte. Do you want to respond to the statement that 
we ought to cover all the species rather than just the two that 
are the bill because obviously somebody is probably going to 
offer an amendment to accomplish that and we are going to have 
a make a decision about that? Mr. Wyatt or Mr. Jacobson, do you 
want to respond to Ms. Perry and Mr. Ashe, who say that we 
ought to cover all nine?
    Mr. Wyatt. I think that if you are using the new USGS study 
to predicate that, that the study, although you know attempting 
to characterize this situation has got a lot of flaws and there 
is a lot of uncertainty involved in it, as Dr. Jacobson 
testified. And so, I think you need--before you start to 
eliminate thousands of American jobs and destroy American 
families, you need to seriously consider all the ramifications. 
This is about far more than importation. I mean, we can----
    Mr. Goodlatte. What do you say to the people who point to 
the pretty significant list of a 15-year old was killed by his 
brother's 11-foot pet python; an 11-month-old boy was killed by 
his father's 10-foot pet python; 8-foot python escaped from his 
cage, crawled into an adjoining bedroom and killed a 21-month-
old boy in his crib; 7-month-old girl was killed by her 
father's 8-foot reticulated python.
    Again, as I say, I think that those ownership issues 
probably should be addressed by State legislation, not Federal 
legislation. But what do you say to those who say that there is 
a real countervailing issue here to the economic aspect?
    Mr. Wyatt. I agree with you, Congressman. And you know, 
there is no doubt that there are some issues with safely 
maintaining these animals. But it can be done in a responsible 
manner and you need to take a little bit of perspective. 
Although all life is precious, if you look at the incidents 
involving dogs and other domestic wildlife, according to the 
Humane Society of the United States, there has been already 
this year over 20 deaths attributed to dogs.
    Mr. Goodlatte. I understand that. But I also would bet two 
things, one that dogs are in a far, far, far higher percentage 
of households in the United States than large snakes are. And 
secondly, we, as a society, have developed ways to educate and 
so on in dealing with them. I think we are far behind that in 
dealing with these large reptiles.
    Mr. Wyatt. Absolutely. And the legislation that we are 
pushing to put professional standards in place in the few 
places where they are not already in place will go a long way 
to addressing these issues. And the more public education we 
have in bringing more people into compliance, it will reduce 
those numbers even more.
    So you are talking about something which is not having a 
huge impact on the population as a whole. And I don't disagree 
that there are more dogs in captivity than there are big 
snakes. But there is--most of the risk associated with dealing 
with these animals is occupational risk. Innocent members of 
the public outside the owner's home or facility are not being 
hurt by these animals like could even happen with a stray dog. 
It is people within the families. And oftentimes, you are going 
to find that these people are already in violation of the law, 
and have put themselves in a position where they are 
threatening their families.
    Mr. Goodlatte. Or the plumber or the electrician.
    Mr. Chairman, my time has expired. I thank everybody on 
this panel. It is a very interesting issue. And I don't think 
the solution is an easy one. I do think the general issue of 
whether or not they should be allowed in people's homes is not 
the purview of the Congress, but the issue of whether or not 
non-native species should be imported to the United States if 
they do get into the wild and cause significant environmental 
damage and cause a risk to people outside of their homes is 
something that we should be taking into consideration.
    Thank you.
    Mr. Scott. Thank you. Gentlelady from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
thank Congressman Meek, a dear friend from Florida, and of 
course, a colleague on this Committee, Congresswoman Wasserman 
Schultz, for the thoughtfulness that has been projected into 
this, into the deliberations that we have here.
    I would like to indicate with all due seriousness as I 
listen to Mr. Wyatt, and I can appreciate the affection that 
those who handle these animals well would have and would be 
suspicious of a regulatory scheme.
    Let me disagree with my good friend from Virginia. I 
frankly believe if an animal is of such dangerous inclination 
that we do regulate that holding by a family in a private home, 
because a private home is also protected by the laws of this 
land and the Constitution. And we protect people from 
intruders. When I say that, the law doesn't allow intruders to 
kick open your doors and come in, guns waving at you, because 
you are protected in your home.
    Well, the same thing. The law should protect others, 
whether it is through being overwhelmed by an oversized animal. 
And let me just say, the idea--and I use animal generic because 
I know some of the specialists will tell me that snakes are 
obviously in a refined category. But in any event, if you have 
the kind of size pet that wants to consume an alligator, then 
you have a problem because I don't believe that that family can 
contain that particular pet. If you have one of this size, that 
is being measured by this group here, I think we have a 
problem. If you have one that has 58 fertilized eggs, I think 
we have a major problem. And what I see this legislation as 
doing is add the constrictor snake of the species python to 
section 42(A)(1) of the title 18, which is known as the Lacey 
Act, as an injurious species that would be prohibited from 
being shipped and imported into the United States.
    Now, I may be willing to go further because some people may 
find that they admire sharks. Certainly we know a whole array 
of shark incidences from the Atlantic Coast to the Pacific 
Ocean. I live on the Gulf Coast, not necessarily a haven, but 
someone might want to say this is attractive; I think I can 
handle this. Let me get a shark egg and put it in my fish tank. 
And the question is, is that a responsible thing to do?
    So I think the question should be asked, and I want us to 
do it humanely as we regulate. But at the same point, I need us 
to realize that we have regulated a lot of things.
    There is a second amendment. That is a very volatile 
question to compare it to. But we do have a level of 
regulation. We want people to own weapons, guns, in a legal 
manner. We are suspicious of people who pile up guns in their 
homes with no regulatory registration, if you will. So we have 
to be responsible.
    So I would ask Dr. Jacobson, in your testimony you focus on 
the inherent uncertainty of risk and you seem hesitant to 
suggest Congressional action when there is merely a risk as 
opposed to an actual problem. Nonetheless, you would agree that 
there is a risk.
    Would you agree that there is a likelihood to some degree 
that a breeding population of pythons or one of the other 
constrictor snakes under scrutiny could emerge in another warm 
climate area in the United States? Do we have that possibility?
    I would like to--if you could just answer quickly yes or 
no, I want to get to Nancy Perry if I could, please, because I 
need to have--just if you would, sir.
    Mr. Jacobson. Based on another paper that contradicts this 
report, it is south Texas.
    Ms. Jackson Lee. I am sorry.
    Mr. Jacobson. There was a paper published in a reviewed 
journal. This is not reviewed. This is what we call gray 
literature. It hasn't gone through the scientific scrutiny of 
peer review such as a paper going to science or nature. And so 
there is another paper that came out that has a different model 
that was published. And it is in contrast to this. And they 
have a map of the U.S. showing the Burmese python only found 
suitable habitat, south Florida and south Texas.
    Ms. Jackson Lee. At this point in time in our history, that 
if they begin to move around the country by way of private 
owners, we may have some greater concern there. I am sure there 
is a climate question and a habitat question. But if there is 
no recognition that they can be both a risk and an actual 
problem, then there is the opportunity to proliferate.
    Mr. Jacobson. Not up north, not as far as those maps depict 
in here. I lived in Missouri, and there is no way they would 
get to Missouri.
    Ms. Jackson Lee. Well, let me say this. I think there is a 
large population in south Texas and Florida, so I am not 
necessarily suggesting to you, I would not suggest to you, I 
don't pretend to be a specialist. But I am not pretending to 
suggest that they would proliferate. I am saying that people 
can do strange things.
    Mr. Jacobson. We have had--I met someone years ago that was 
a student at Columbia University, and he had a Russell viper in 
his dorm room. And this was back in the early 70's. This would 
never happen today because of those--it escaped and was never 
found. And there are a lot of examples of animals. They just 
can't handle that climate.
    Ms. Jackson Lee. And I understand. But we don't know on the 
way to his demise how many rats and other animals that he 
partook. I am glad he didn't find a 2-year old.
    Nancy, let me--Ms. Perry, might I please pose--you are with 
the Humane Society. Let me get your sense of this question, or 
the idea of what we are trying to do or this legislation is 
trying to do.
    Ms. Perry. Yes. Thank you, Congresswoman. I feel that the 
Humane Society is here to state that we believe that the USGS 
has identified snakes that, all nine snakes pose either a high 
or a medium risk to the environment. We already know that these 
giant constrictor snakes pose a very serious risk to people. 
And I think that we should follow the path that Congress has 
taken before when we have dealt with dangerous wild animals as 
pets, and we have been comprehensive.
    In the case of big cats, we banned all big cats. In the 
case of primates, we banned all primates just this year. And I 
think this is the same pattern that we need to follow here. And 
obviously, it is obvious from the testimony today, whoever you 
listen to, this is a burgeoning problem.
    Ms. Jackson Lee. Absolutely.
    Ms. Perry. Even Mr. Wyatt testifies to the burgeoning trade 
involved. So this is not going away, and I think we have to get 
out ahead of it. We have a problem we can't necessarily fix 
with some of these snakes, but we darn well better get ahead of 
the rest of them. And I think it is time for an amendment that 
would get us there.
    Ms. Jackson Lee. Mr. Chairman, if I could get Mr. Horne, 
only because I think he is engaged with the population. I 
understand that the Everglades have residents and therefore I 
see you are in south Florida, and therefore large snakes of 
this kind would seem to pose a threat to your wastewater system 
or the residents. What have you found, besides the loss of 
life, potentially, for that size snake coming into an area 
where there are people living?
    Mr. Horne.
    Mr. Horne. Well, we have indeed found that. We have found 
them on some small farms, as well as some properties that the 
district owns that we leased back, waiting on restoration. We 
ask the farmers to start a new farming practice and that would 
be to encircle the property from outside in. And indeed, on one 
of those in a 1,500-acre parcel, we killed I believe it was 47 
snakes, just by plowing them under, and of course then we went 
out and got them. So that is pretty bizarre.
    Ms. Jackson Lee. About what size were they?
    Mr. Horne. They were anywhere from 6 to I believe around 10 
feet, most of them.
    Ms. Jackson Lee. You would not want to meet them on a dark 
night.
    Mr. Horne. I wouldn't want to.
    Ms. Jackson Lee. So this poses a health issue, a safety 
issue, and certainly I am not sure how many farmers, these are 
farmers farming something else, I take it?
    Mr. Horne. They farm beans and eggplants.
    Ms. Jackson Lee. It certainly does not contribute to the 
business that they are in.
    Mr. Horne. No, ma'am, it does not. And particularly there 
is a lot of bird farmers and everything else that is in that 
area. If they are there, it only stands to reason that they 
have to be in other places. They are just not spotted, the 
concentrations haven't got to a point where you are going to 
find them in the same magnitude that they are there. But just 
the fact that they are there, that there is enough food source 
in that small concentration that would hold so many snakes is 
amazing to me. So, you know, the one--that picture that I was 
just sent yesterday, actually a mower in a habitated area of 
Homestead actually hit one when they were mowing one of our 
canal banks and it was off the bank in the water and we have 
pictures of that.
    So I mean they are there. They are just not being seen in 
the same magnitude that we are finding them very close to the 
Everglades where they are much harder to find.
    Ms. Jackson Lee. Mr. Chairman, I live on the Gulf Coast, as 
I indicated, and I was very intimately involved, as many of us 
were, in Hurricane Katrina. And of course we know the wetlands 
and areas around the New Orleans areas. When I say wetlands, 
they are close to the Gulf Coast as well. But the whole idea of 
a hurricane and what it brought in, it is not too far reaching 
to think that troubles that you might have in south Florida 
just because of the nature of nature, that troubles could come 
about because you move these animals or someone brings them or 
however it might be transported.
    We are all ploughing new ground. But I do know it poses a 
major safety risk.
    And I will end on this note. I don't want to see--these are 
snakes that we don't want to see abused. And the import of 
such, the movement of such, the proliferating of such is 
abusive. If they are not allowed to be in their normal habitat 
because they are proliferating around human beings, there is an 
abuse question here, and I do believe we have the right to 
regulate.
    I yield back, Mr. Chairman.
    Mr. Scott. Just have a second round, just very brief 
question to Mr. Ashe. There is no question that the population 
of these snakes, the population is growing. Is that right?
    Mr. Ashe. No question.
    Mr. Scott. At some point you would imagine it would reach 
an equilibrium, where it wouldn't grow any more? Or will it 
just continue to grow?
    Mr. Ashe. We do not know that. We would predict that these 
populations would expand to some point. The point has been 
raised earlier that they are residing now in a very rich 
ecological environment, the Everglades. At some point they are 
probably pretty happy there because there is a good steady 
supply of food. If they start to deplete that supply of food, 
then they would look to move elsewhere. And so our experience 
with invasive species as a whole is that they tend to be slow 
to get themselves established. Once they get themselves 
established, then they began to expand rapidly.
    Mr. Scott. Since they are already there and they are 
growing, what good would this bill do?
    Mr. Ashe. For the species that are already there, the Lacey 
Act, listing them under the Lacey Act would provide an 
additional level of assurance and control. We will have to have 
a multifaceted effort in order to remove them or control them 
in the environment. For the species that have not been, have 
not established themselves in the natural population, that is 
where the Lacey Act will have the most effect, which is why we 
have asked you to include those other species so that we can 
get ahead of this curve.
    If I may, Mr. Chairman, with regard to the statement that 
was made about the USGS being gray literature and not having 
been reviewed, the USGS has a very rigorous process of 
objective and independent peer review for their products. This 
is a citable scientific document, has been through a rigorous 
process of scientific peer review.
    Mr. Scott. Dr. Jacobson, could you say a word about the 
growing population ever reaching equilibrium where it would 
stop growing?
    Mr. Jacobson. I don't have the expertise to really give you 
a definitive statement on it. Some of it will be based on my 
view on the Gestalt of these animals and what they do and a 
combination of biological characteristics. I would expect that 
at some point down the road, say there was no intervention at 
all, there would be some population equilibrium. And I would 
expect that you would probably start, as you run out of a prey 
base, the predators tend to get smaller.
    And I think this may have been experienced on Guam with the 
brown tree snake. When originally identified, those snakes 
before management plans went into effect were much larger and 
now they are smaller as they have eaten up their prey base.
    For these animals to migrate into other areas, I think that 
cars and humans will kill them. I mean, most people on the 
panel I expect have never had a snake as a pet or probably 
don't know many people that have had them as pets, but there is 
a disdain for snakes, for whatever the reason is. And so they 
are an easy target in certain ways, especially when the reptile 
hobbyists have taken a long time to really get to this point 
and not being more proactive. But they are now.
    The presentation of these animals to me as dangerous is a 
very relative term because of the range of animals I have 
worked on. If you saw how they handled that big python, that 
animal was not handled as a dangerous animal. No one had 
control of its head. That was a big fat snake that probably 
could just barely move. There is a certain risk, but not I 
think the risk that----
    Mr. Scott. My question was, how much will it continue to 
grow and what is the limitation on growth?
    Mr. Jacobson. Without having the data to know, really, what 
is the population density and what is the prey base that is 
needed? I have heard these figures from 30,000.
    Mr. Scott. Can you explain prey base?
    Mr. Jacobson. Pardon?
    Mr. Scott. Can you explain prey base?
    Mr. Jacobson. Prey base is the food that these animals will 
feed upon, whether they are raccoons.
    Mr. Scott. So the limit on growth of the population is when 
they run out of food?
    Mr. Jacobson. Yeah.
    Mr. Ashe. Mr. Chairman, part of the concern is that the 
food for these species includes a number of animal and aquatic 
species that are listed under the Endangered Species Act. So we 
can't afford to wait until their prey base runs out because 
those are critically endangered species. As I said before, as 
the numbers of those species go down, then we have to increase 
regulation on the other parts of the Florida economy. So the 
tourism economy and other aspects of the Florida economy have 
to absorb that addition.
    Mr. Scott. Is the cat out of the bag already? If you have 
got enough of these snakes floating around, the population is 
growing, the prey base is being consumed, what can we do about 
it? How much difference would this bill make one way or the 
other since the population is already growing?
    Mr. Jacobson. They need to be worked on biologically with 
adequate money and for control. The problem with the brown tree 
snake was there wasn't adequate funding, and we put a proposal 
together as part of a biotech group in the early 1990's to USGS 
for using transgenic modern-day techniques to basically insert 
a gene into a parasite that would inhibit the reproduction of 
the brown tree snake. It was going to take 5 to 10 years to do. 
They have that project incorrectly stated in this report. And, 
unfortunately, with the review process, some things get missed. 
And our project wasn't to take a virus and manipulate that and 
kill the snake with a virus that would kill it; it was to take 
a harmless parasite and put a gene in that would shut off some 
part of its reproductive cycle. That was going to cost about $4 
million, $5 million. That was the end of the project. So it was 
not adequately funded.
    And I expect this Burmese python catastrophe in south 
Florida, unless it is funded properly, this will go on and on 
and on forever.
    Mr. Ashe. That is the point, Mr. Chairman. The idea that as 
we--we are doing things to help control this snake. We are 
expanding python capture. We are partnering with hunters. We 
are doing cooperative workshops and we are studying python 
movement and habitat. We are working on python attractants. But 
those are efforts that require taxpayer dollars. And I think 
you and Mr. Gohmert and the Members of the Committee understand 
the limitation on taxpayer dollars.
    So if we can't prevent additional invasions from happening, 
then that means the taxpayer bears the burden of this cost as 
we have to increase our efforts at controlling these invasive 
exotic species, and so the taxpayer is the one who bears the 
cost of that.
    Ms. Perry. Mr. Chairman, this legislation helps us prevent 
adding fuel to the fire for the Burmese and African pythons at 
the very, very least. It also provides us with a great 
opportunity to address the other, the entire collective group 
of nine constrictors that we already know now from USGS do pose 
a genuine risk to the environment. So it gives us an 
opportunity.
    Mr. Scott. Mr. Horne.
    Mr. Horne. The State of Florida is spending billions of 
dollars to restore the Everglades and the ecosystem that feeds 
that, and these snakes are going to actually destroy most 
everything that we are there to protect. I mean, I think that 
is inevitable. You actually heard that from Mr. Jacobson. You 
heard that they are going to eat the prey base, and when what 
we are trying to store is gone are going to have basically the 
river grass with nothing else in there. And there are numerous 
species that is there.
    We know that they can live in other places, the Louisiana 
bayou, the Okefenokee Swamp, Texas, Mississippi. We know easily 
they can be there. They don't have the same problem we have 
currently, but we have to anticipate they are going to have 
that problem based on this report, and the fact that in their 
native environment they live in the same type of climates, so 
it is only inevitable they are going to be there.
    The reason we need to do this, and we are absolutely in 
support of the nine species, we need to stop the importation of 
those. We are not going to stop the snakes from spreading. It 
is only a matter of time. And we talked earlier about storm 
events. We know that the Burmese moves dramatically when there 
has water because it is easier for them to move because of 
their size, particularly the large ones. So those water bodies 
become a conduit for them to move wherever. So a flood event, 
they are moving. They are spreading their habitat because they 
can move quickly and easily on that. So we definitely urge you 
to act on this bill.
    Mr. Scott. The gentleman from Texas.
    Mr. Gohmert. Thank you. I am curious, we keep talking about 
things like Okefenokee in Georgia. You have got Louisiana 
bayous. Texas has some areas where they might could live. But 
have any of these snakes that are under discussion here been 
found in the wild in Georgia, in Louisiana, or Texas, to your 
all's knowledge?
    Mr. Horne. We certainly know in Florida they have moved 
because we have found them us as up as Sarasota, they have been 
found in Melbourne, and basically to consider it there you need 
to find three or four or them of them, find them in the wild. 
And since they like to be in places where they have large prey 
base, they are going to be in the swamps.
    Mr. Gohmert. That is my question. I am just asking, I 
understand all of that, we covered it completely. I am just 
asking if any have been found in Georgia, Louisiana, or Texas.
    Mr. Wyatt. The answer to that question is, no. And that is 
a notable point, because these animals have existed in 
captivity in the United States for upwards of 30 years.
    Mr. Gohmert. That was another question I had. You mentioned 
that before, Mr. Wyatt, that there may be 4 million snakes that 
have been here for 30 years. What was the event 30 years ago 
that brought them to the United States?
    Mr. Wyatt. Well, they became--well, it actually goes back 
farther than that and probably as far as the early history of 
animals being brought into the United States. Dr. Elliot could 
probably better--Dr. Jacobson could probably address that 
better than I can.
    Mr. Gohmert. Why did you say 30 years ago?
    Mr. Wyatt. Well, 30 years ago is when herpetoculture, the 
hobby and science of breeding reptiles, really started to take 
shape and more interest was drawn to it. But the animals were 
first being brought in, you know, as much as 60 years ago and 
in the case of some animals even much longer ago than that.
    Mr. Gohmert. Has there ever been a python removal program 
that has been successful anywhere?
    Mr. Wyatt. It has only just begun in Florida. And a point 
there is that the greatest work done as far as actually 
proactively working to remove pythons from the Everglades has 
been done in a partnership between the State of Florida, the 
Florida Wildlife Commission and----
    Mr. Gohmert. We have been here a long time, and I am just 
going to ask you please restrict your answer to my question. I 
have zeroed in just a few answers I want, so I have facts. And 
unless somebody has answered to the contrary, then apparently 
there has not been a removal process.
    Mr. Jacobson. No. It hasn't been accomplished. And there 
are there has not been accomplished and there are only two 
snakes where there has been a really active removal program, 
and they haven't succeeded.
    Mr. Gohmert. I am also curious, and there isn't an answer 
for this. But I wondered if a snake is labeled injurious and 
this kind of action is taken, if then that may cause a 
realization that, gee, if this snake does harm to someone, then 
I may have even a heightened civil liability than I have 
otherwise. Maybe now I have a heightened incentive to release 
this snake into the wild.
    And I am just wondering, do you think that is a legislate 
concern, that passing this bill might push people to release 
snakes into the wild that they might not otherwise?
    Ms. Perry. Mr. Chairman, I would suggest that is probably 
already a problem. When we have the fatality of a 2-year-old 
girl this year in July, anyone who has a snake like this has 
got to wonder whether or not they want to keep that snake. And 
I think we shouldn't let that prevent us from getting out ahead 
of this problem.
    Mr. Gohmert. With regard to thermal imaging, since it is a 
snake, I doubt that they show up on thermal imaging. Do they?
    Mr. Jacobson. Yes, they can. They can. It depends on--we 
have done thermal imaging different reptiles. And at least in 
captivity, in the wild, too, they will go out and bask or be 
out in the sun. And so their body temperature is very highly--
it is physiologically regulated but very dependent on the 
environment. They can get their body temperature up to, say, in 
the 90's and you will pick that up. At night it might drop down 
into the 70's or whatever. So.
    Mr. Gohmert. There is a chance it could pick it up.
    Mr. Jacobson. Yes.
    Mr. Gohmert. Okay. I was just curious. Thank you very much.
    Mr. Scott. Mr. Horne.
    Mr. Horne. The Army Corps of Engineers has actually done 
some work on the snakes in south Florida, but there has to be a 
pretty dramatic temperature variance for them to see them, and 
they actually used a drone plane with some imaging equipment on 
it and they actually did find them. But it has to be on a day 
when there is a dramatic change in the weather, which is not 
something we typically have in Florida. So it makes it 
difficult there.
    Ms. Perry. Can I address the previous question? You asked 
if these snakes are found in the wild in other States. And 
there is sort of a distinction between whether they are found 
and breeding and established, or just found in the wild because 
they escaped. And I would point you to our testimony which has 
this list of incidents just in August of this year. In Oregon, 
California, Missouri, Utah, there are incidents of snakes being 
found in the wild in the sense that they are out and loose. And 
obviously, over the course of a summer, a snake could survive 
if the temperatures allowed it to and could cause serious 
incidents.
    Mr. Jacobson. When I was growing up as a child, there were 
people I knew had snakes that escaped in the neighborhood, 
either killed or never seen again. And so there are snake 
escapes in probably every major city in the country, and in 
airports there have been examples.
    Mr. Scott. Thank you very much. I would like to thank all 
of our witnesses for their testimony today. Members may have 
additional written questions which we will forward to you, and 
ask that you answer as promptly as possible so that the answers 
may be made part of the record. The hearing record will remain 
open for 1 week for the submission of additional materials.
    Without objection, we will submit into the record letters 
from the Pet Industry Joint Advisory Council, Dr. Kenneth 
Crisco, Senior Biological Scientist, Division of Herpetology, 
Florida Museum of Natural History University of Florida, the 
Wildlife Society, the Gourmet Rodent Pet Store.
    Mr. Jacobson. It employs 70 people and makes about $4 
million a year.
    Mr. Scott. And we have requested that their letters and 
written testimony be entered into the record of the hearing.
    Without objection, the Subcommittee now stands adjourned.
    [Whereupon, at 12:25 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
